<html>
<title> - EXAMINING THE TRAINING OF FIRST RESPONDERS IN RURAL COMMUNITIES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]





    EXAMINING THE TRAINING OF FIRST RESPONDERS IN RURAL COMMUNITIES

=======================================================================

                             FIELD HEARING

                               before the

                      SUBCOMMITTEE ON MANAGEMENT,
                     INVESTIGATIONS, AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 22, 2008

                               __________

                           Serial No. 110-130

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
46-631                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

                    I. Lanier Lavant, Staff Director

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

       SUBCOMMITTEE ON MANAGEMENT, INVESTIGATIONS, AND OVERSIGHT

             Christopher P. Carney, Pennsylvania, Chairman

Peter A. DeFazio, Oregon             Mike Rogers, Alabama
Yvette D. Clarke, New York           Michael T. McCaul, Texas
Ed Perlmutter, Colorado              Candice S. Miller, Michigan
Bill Pascrell, Jr., New Jersey       Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex  Officio)
Officio)

                     Tamla T. Scott, Staff Director

                         Daniel Wilkins, Clerk

                    Michael Russell, Senior Counsel

                                  (II)










                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania, and Chairman, Subcommittee on 
  Management, Investigations, and Oversight......................     1
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Subcommittee on 
  Management, Investigations, and Oversight......................     2

                               Witnesses

Mr. Dennis R. Schrader, Deputy Administrator for National 
  Preparedness, Federal Emergency Management Agency, Department 
  of Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     6
Mr. James M. Walker, Jr., Director, Alabama Department of 
  Homeland Security:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
Dr. William Meehan, President, Jacksonville State University:
  Oral Statement.................................................    17
  Prepared Statement.............................................    20
Mr. John C. Pearce, Associate Director, Canine Detection Training 
  Center, Auburn University:
  Oral Statement.................................................    22
  Prepared Statement.............................................    23
Mr. Matthew C. Knight, Vice President, Alabama Association of 
  Rescue Squads:
  Oral Statement.................................................    28
  Prepared Statement.............................................    29

                                Appendix

Questions From Honorable Bennie G. Thompson......................    51

 
    EXAMINING THE TRAINING OF FIRST RESPONDERS IN RURAL COMMUNITIES

                              ----------                              


                         Tuesday, July 22, 2008

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Management, Investigations, and Oversight,
                                                     McClellan, AL.
    The subcommittee met, pursuant to call, at 9:00 a.m., in 
the Auditorium, Auburn University CDTC Building, 265 Rucker 
Street, McClellan, Alabama, Hon. Christopher P. Carney 
[Chairman of the subcommittee] presiding.
    Present: Representatives Carney and Rogers.
    Mr. Carney. The subcommittee will come to order.
    The subcommittee is meeting today to receive testimony on 
``Examining the Training of First Responders in Rural 
Communities.''
    First, I would like to take a moment to thank 
Representative Rogers for suggesting this venue and the subject 
of today's hearing. Last summer, Mike was kind enough to travel 
up to Pennsylvania for a field hearing our subcommittee held to 
investigate our Nation's preparedness for a large-scale event 
involving agriculture, be it accidentally contaminated food or 
something more malicious. We started talking about how similar 
our districts were while we were at lunch that day and I think 
that is when the wheels started to turn to get this hearing set 
up. Not only are both our districts predominantly rural and 
apparently really hot in July----
    [Laughter.]
    Mr. Carney [continuing]. But the majority of the United 
States looks very similar in terms of urban versus rural.
    Unfortunately, pre-9/11 training for responders in rural 
areas was lacking compared to what we have today. I am not 
knocking the efforts pre-9/11. Those programs were and are 
invaluable. But when our responders are preparing for a 
terrorist attack or a natural disaster, it is nice to know they 
have the training similar to that of their urban counterparts, 
which is exactly why Congress sought to establish Federal 
training programs for first responders in rural areas.
    Representative Rogers has the unique opportunity to 
represent a district that includes the Department of Homeland 
Security's Center for Domestic Preparedness, which provides 
first responders in rural areas with unparalleled Federal 
training for emergency events, and offers its expertise to all 
States as well as local or tribal agencies.
    In advance of our visit to the CDP yesterday, I received a 
list of all the Pennsylvania first responders who have trained 
at the Center. Frankly, I was very pleasantly surprised to see 
that over 1,800 responders from Pennsylvania, including a 
number from my district, have had the incredible opportunity to 
train and graduate here at the Center. Frankly, I wish I had 
had the same opportunity back in the days when I was an EMT--
when we had horse-drawn ambulances.
    [Laughter.]
    Mr. Carney. All of our time today will not be spent 
discussing training centers for first responders in the rural 
areas. Long before I arrived in Washington, Mike began 
advocating for improvements in the myriad of Federal canine 
detection programs. Now I know why. Another incredible facility 
here in Alabama is Auburn University's Canine Detection 
Training Center.
    After visiting yesterday, I came to understand the desire 
to change the way the current system operates. Right now, there 
are a number of separate training programs for various Federal 
law enforcement canine detection teams spread throughout the 
Federal Government, not to mention the procurement arrangements 
with foreign entities. Yesterday, at the Auburn canine 
facility, we saw what can actually be done when it comes to 
training canines.
    I was glad to join Mr. Rogers and the Chairman of the full 
Homeland Security Committee, Bennie Thompson, as an original 
co-sponsor of H.R. 659, the Canine Detection Team Improvement 
Act. H.R. 659 seeks to unify the training and streamline the 
procurement of canines for the various components of the 
Department of Homeland Security currently deploying canine 
teams. What the bill proposes to do is evidently do-able, but 
as we have seen too many times with DHS, there are bound to be 
inter-agency battles at the mere discussion of proposals like 
H.R. 659.
    That said, our committee has made some significant headway 
encouraging improvement at DHS. I think reforms outlined in the 
Canine Detection Team Improvement Act are well-suited for 
inclusion in the next DHS authorization bill. I, of course, am 
continuing to work with Representative Rogers to help it move 
forward.
    Thanks again, Mike, and both majority and minority staffs 
for helping to arrange this trip.
    Just a quick housekeeping note. This is still an official 
Congressional hearing, so we have to abide by certain rules of 
the Committee and the House of Representatives. So we ask that 
we have no applause of any kind, no demonstrations with regard 
to testimony. Once again, I thank you all for being here. This 
turnout is quite a testimony to the importance of this topic.
    Now I will turn to Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. I want to welcome you 
again to Alabama, and I thank you for traveling from northeast 
Pennsylvania to be here with us today.
    I also want to thank our witnesses for taking the time out 
of their busy schedules to be with us as well. It is very 
important. As Chris said, this is an official hearing and the 
whole purpose is to get your testimony in the Congressional 
Record about this very important topic.
    I want to make special recognition of Dr. Jay Gogue from 
Auburn, President of Auburn University, who is with us here 
today. I welcome you here, and one of your trustees and my 
friend Earlon McWhorter, thanks for being here.
    Today's hearing will examine the training of first 
responders in rural communities and the role of detection 
canines in homeland security. Yesterday, we had a chance to 
tour the CDP, Center for Domestic Preparedness, its Noble 
Training Center and its Live Agent Chemical Agent Training 
Facility called COBRATF.
    Today, there are 250 responder students training at the CDP 
representing 32 States, including Alabama and Pennsylvania. We 
saw first-hand how hard these folks are training and how 
important this kind of training is to prepare for major 
emergencies.
    We also toured the Auburn Canine Detection Training Center 
that provides a valuable resource to homeland security missions 
across the country. We were briefed at the Alabama Emergency 
Management Agency in Calhoun County, which is a state-of-the-
art facility and a model for other communities across the 
country.
    The training of first responders in rural communities is a 
critical element in the effort to secure our homeland. Those 
folks who are on the front line of our Nation's security are 
the first line of defense against terrorist attacks or natural 
disasters.
    To further these efforts, in 2007, I created a provision in 
the 
9/11 Act which President Bush signed into law, to authorize the 
establishment of the Rural Policing Institute at the Federal 
Law Enforcement Training Center, or FLETC. My dad, as many of 
you know, is a fireman, retired fireman. So I grew up with the 
challenges of rural firefighters. I have seen how many of our 
loved ones leave their jobs and their families for long periods 
of time to receive training outside of their communities. Down 
the road, I hope the Institute could be an important step in 
that direction to helping train these important individuals 
across our country.
    This hearing also builds on the subcommittee's work in 2005 
on the use of detection canines in homeland security. We heard 
about how these dogs have helped save lives both here and 
overseas. Since then, Congress has passed a number of bills 
that helped expand the use of canines throughout the Department 
of Homeland Security, a fact that I am very proud of.
    We look forward to hearing about these and other issues 
today from our panel of witnesses that includes the Honorable 
Dennis Schrader, Deputy Secretary of National Preparedness at 
FEMA, Federal Emergency Management Agency; we have Mr. Jim 
Walker, Director of the Alabama Department of Homeland 
Security; Dr. William Meehan, President of Jacksonville State 
University and Mr. John Pearce, Associate Director of Auburn 
University Canine Detection Training and Matthew Knight, Vice 
President of Alabama Association of Rescue Squads from just 
south of here in Randolph County. Welcome.
    Thank you all for being here and I will yield back, Mr. 
Chairman.
    Mr. Carney. I would like to welcome our panel of witnesses. 
Our first witness is the Honorable Mr. Dennis Schrader, who was 
confirmed by the Senate in August 2007 to serve as the Deputy 
Administrator for National Preparedness within FEMA.
    Prior to his current position, Mr. Schrader served as the 
first director of the Maryland Governor's Office of Homeland 
Security. In addition, he spent 16 years at the University of 
Maryland, where he worked extensively on medical preparedness 
plans. Mr. Schrader also served in the Navy until 1987 and in 
Reserve status until 2006. I thank you for your service, and 
thank you for being here today, Mr. Schrader.
    Our second witness is Mr. Jim Walker, the Director of the 
Alabama Department of Homeland Security. Director Walker served 
in the Army for 20 years before retiring as a Lieutenant 
Colonel. He has served in his current position since January 
2003 when he became the first Director of the Alabama 
Department of Homeland Security.
    Director Walker has testified before our committee several 
times, we are pleased to have him back again.
    Our third witness is Dr. William Meehan, the President of 
Jacksonville State University. Dr. Meehan has served at the 
University since 1977 and assumed the role of President in 
1999.
    We are very pleased to have Dr. Meehan here today to 
discuss the University's Institute for Emergency Preparedness 
and its undergraduate and graduate programs in emergency 
management. I appreciate you being here with us.
    Dr. Meehan. You are welcome, Mr. Chairman.
    Mr. Carney. Our fourth witness is Mr. John Pearce, the 
Associate Director for Auburn University's Canine Detection 
Training Center.
    Mr. Pearce had a distinguished career in the Air Force 
where he became an expert in canine detection. In addition to 
his numerous military assignments, Mr. Pearce successfully 
trained over 200 explosive detection dog teams that have been 
used in 36 major airports across the country.
    He has served in his current position since 2002 where he 
developed and now leads Auburn's Canine Detection Training 
Center. We had the pleasure of visiting the center and came 
away thoroughly impressed. We'd like to thank you for the tour 
and for joining us today, Mr. Pearce.
    Our final witness is Mr. Matthew Knight, who serves as the 
Vice President of Alabama Association of Rescue Squads.
    He has been an emergency management service provider since 
1995. He holds numerous licenses and certifications and has 
served as an instructor for several EMS training classes.
    Mr. Knight, it is good to have you with us. I am a first 
responder myself. Welcome, brother, it is good to have you 
here.
    Mr. Knight. Thank you, Mr. Chairman.
    Mr. Carney. Without objection, the witnesses' full 
statements will be inserted into the record. I will now ask 
each witness to summarize his statement for 5 minutes, 
beginning with Mr. Schrader.

   STATEMENT OF DENNIS R. SCHRADER, DEPUTY ADMINISTRATOR FOR 
  NATIONAL PREPAREDNESS, FEDERAL EMERGENCY MANAGEMENT AGENCY, 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Schrader. Good morning, Chairman Carney and Ranking 
Member Rogers, I am Dennis Schrader, Deputy Administrator for 
National Preparedness at FEMA in the Department of Homeland 
Security. I am pleased to appear before you today to discuss 
the training of our Nation's response community, and how the 
Center for Domestic Preparedness is currently working toward 
meetings those needs, including those of the rural first 
responder.
    Today, the Center for Domestic Preparedness, or CDP for 
short, is an impressive facility that employs nearly 1,000 
personnel, including 50 authorized Federal positions. The 
facility offers 38 courses, on-site billeting and dining 
capacity for 465 students, and a fully certified multi-
disciplinary instructional staff with an average of 19 years of 
experience in their chosen field.
    Citizens from every State in America come to Anniston to be 
trained each year in learning and using real-world scenarios 
that feature live nerve agents, also known as chemical weapons 
of mass destruction.
    Methods of CDP training include resident training, which is 
delivered on-campus; non-resident training, which we deliver 
through mobile regional training delivery; and indirect 
training, also known as train the trainer. While all these 
courses are available on the CDP campus, select courses are 
available through non-resident programs and mobile training 
teams.
    At FEMA, we know that CDP's non-resident training delivery 
is highly valued for rural responders, eliminating the need for 
the responder to travel in order to benefit from in-person 
instruction. This capability is particularly beneficial not 
only to rural response agencies that are often limited in 
staff, but also to the thousands of volunteers that serve as 
response officials in their home jurisdictions.
    Training for rural first responders poses unique challenges 
as compared to those in urban areas. For instance, an often-
quoted study suggests that 90 percent of law enforcement 
agencies across the Nation consist of 50 officers or less.
    The CDP, to include the COBRATF and Noble Training 
Facilities, delivers high-quality training that addresses 
aspects of every target capability, including the 20 that are 
associated with threats to rural America.
    In Washington, my staff and the National Integration Center 
work closely with CDP staff to ensure that the curriculum 
taught at the CDP aligns with the target capabilities which 
address the mandates established in the Homeland Security 
Presidential Directive 8 and the Post-Katrina Emergency 
Management Reform Act.
    The CDP is also a member of the National Domestic 
Preparedness Consortium that along with the Rural Domestic 
Preparedness Consortium works collaboratively to address the 
needs for response training. The CDP enjoys a close working 
relationship with Alabama's Department of Homeland Security and 
Public Safety and collaborative partnerships with Auburn 
University, Tuskegee University, the University of Alabama at 
Birmingham and Jacksonville State University.
    In conclusion, the CDP's training program has grown and 
adapted to the needs of our Nation's first responders. FEMA is 
proud of the capability that CDP offers America's response 
community and is working to ensure that the needs of these 
first responders are met.
    Chairman Carney, Ranking Member Rogers, I appreciate the 
opportunity to be here with you today and look forward to 
answering any questions you may have.
    Thank you.
    [The statement of Mr. Schrader follows:]
                Prepared Statement of Dennis R. Schrader
                             July 22, 2008
     Good morning, Chairman Carney, Ranking Member Rogers and Members 
of the committee. I am Dennis R. Schrader, Deputy Administrator for 
National Preparedness in the Federal Emergency Management Agency, U.S. 
Department of Homeland Security (DHS). I am pleased to appear before 
you today. I welcome this opportunity to discuss our Nation's current 
training capabilities and needs for first responder training, and how 
the Center for Domestic Preparedness fits into the National Training 
Program.
                              introduction
    The Center for Domestic Preparedness (CDP) is the only 
congressionally chartered Federal training center for advanced hands-on 
training for incidents involving live chemical/nerve agents. Over the 
years, the curriculum has expanded to include all-hazards incident 
management as well as specialized training for hospital and health care 
workers. The CDP offers training to State, local, and tribal emergency 
response providers from all 50 States and 6 territories in 10 emergency 
disciplines, which include, Emergency Management, Emergency Medical 
Services, Fire Service, Governmental Administrative, Hazardous 
Materials, Health Care, Law Enforcement, Public Health, Public Safety 
Communications, and Public Works.
    In addition, the CDP received one-time statutory authority to train 
Federal, private sector, and international students this year--which 
has proved to be extremely valuable in creating a learning environment 
that mirrors real-world operations. The fiscal year 2008 Consolidated 
Appropriations Act (Pub. L. 110-161) included this specific authority 
for the CDP:

``Provided further, That (a) the Center for Domestic Preparedness may 
provide training to emergency response providers from the Federal 
Government, foreign governments, or private entities, if the Center for 
Domestic Preparedness is reimbursed for the cost of such training, and 
any reimbursement under this subsection shall be credited to the 
account from which the expenditure being reimbursed was made and shall 
be available, without fiscal year limitation, for the purposes for 
which amounts in the account may be expended, (b) the head of the 
Center for Domestic Preparedness shall ensure that any training 
provided under (a) does not interfere with the primary mission of the 
Center to train State and local emergency response providers.''

    The Center's mission is to train emergency response providers. The 
CDP brings together students from across the Nation to learn standard 
concepts and procedures, and exchange experiences and best practices.
                                history
    The impetus for the CDP can be traced back to the 1995 Sarin nerve 
agent attacks on the Tokyo subway system. As the event unfolded, public 
safety officials in New York City and elsewhere began to seek ways in 
which a similar event could be prevented in their back yard. These 
officials asked the Department of Defense (DoD) for permission to allow 
civilian responders to train at Ft. McClellan's Chemical Defense 
Training Facility (CDTF). DoD officials granted them access to toxic 
agent training at the CDTF in 1995 and civilians continued to train at 
the DoD facility until 1998.
    Coincidentally, Ft. McClellan was identified for closure by the 
1995 Base Realignment and Closure (BRAC) Commission. Elected officials 
from across Alabama and local community leaders continued to seek ways 
to utilize the soon-to-be-decommissioned Army facility. A concept was 
developed and presented to Members of Congress, who recognized the 
national benefit of having a facility dedicated to training civilian 
emergency responders under Federal Government management. Thus, in 
1998, a plan to establish a permanent federally operated site to train 
civilian emergency responders was put into motion using facilities 
already in place at Ft. McClellan. This training facility would be 
called the Center for Domestic Preparedness (CDP). Ft. McClellan 
officially closed in September 1999.
                          current capabilities
    Today, the CDP employs nearly 1,000 personnel, including 50 
authorized Federal positions, and manages an annual operating budget of 
over $60 million. In its current capacity, the CDP offers 38 courses, 
on-site billeting and dining capacity for 465 students, and a fully 
certified, multi-disciplinary instructional staff with an average of 19 
years of experience in their chosen field.
    Methods of CDP training delivery include resident training 
(training delivered on campus), nonresident training (regional and 
mobile training delivery), and indirect training (train-the-trainer). 
All courses are available as resident training. Select courses are 
available through non-resident programs to include mobile training 
teams.
    Non-resident training delivery is ideal for rural responders, 
eliminating the need for the responder to travel away from home in 
order to benefit from in-person instruction. This is especially 
beneficial, in that many rural agencies are limited in staff and many 
responders are volunteers who have a primary occupation other than 
their volunteer discipline.
    CDP training programs address critical topics such as Chemical, 
Biological, Radiological, Nuclear, and Explosives (CBRNE) awareness and 
response, hazardous materials, emergency response, law enforcement 
protective measures, incident command, crime scene management, protest 
events, evidence collection, personal protective equipment, 
agricultural emergency response, instructor training, medical 
preparedness, health care leadership, and pandemic planning and 
preparedness.
    While every training program is relevant to rural jurisdictions, 
the Agricultural Emergency Response Training (AgERT) course is 
specifically tailored for the rural sector. This course provides an 
overview of agricultural terrorism and CBRNE hazards impacting the 
agricultural and traditional emergency responder. The course includes a 
hands-on exercise that places the responder in an agricultural 
environment where responders can perform tasks to improve response 
skills in realistic surroundings. CDP training uses a scenario-based 
approach that requires responders to train to standard, not time. By 
visually altering the hands-on training lanes to replicate scenarios 
that responders may encounter in their everyday work, the CDP presents 
realistic training based upon current and emerging threats. More than 
60 percent of the CDP courses provide hands-on training and practical 
exercises. This training method provides the rural responder with the 
opportunity to perform response-related tasks that increase individual 
readiness. Hands-on training provides rural responders with the 
experience needed to fulfill their duties in life-and-death situations.
    The CDP also uses mockups of clandestine laboratories in both 
resident and mobile training, to ensure responders recognize equipment 
and paraphernalia that can indicate a terrorism threat. The CDP's 
clandestine labs include Sarin, Anthrax, Ricin, infectious diseases, 
and methamphetamine laboratories.
    Some of CDP's programs include the use of human patient simulators 
that represent the latest in state-of-the-art simulation technology for 
training responders and health care professionals. Sophisticated 
mathematical models of human physiology and pharmacology automatically 
determine the ``patient's'' response to user actions and interventions. 
The simulators provide real-time feedback to responders as though they 
were working with a human being. With dynamic coupling of 
cardiovascular, pulmonary, and pharmacological models along with the 
ability to replicate physical damage, the simulators are a powerful 
tool the CDP uses to provide realistic training to responders.
    Studies conducted by the Walter Reed Army Institute of Research in 
1989 and the Army Research Laboratory in 1994 strongly endorsed the use 
of toxic chemicals as the only method of providing high levels of 
confidence in equipment, procedures, and most importantly, individual 
readiness. Some courses at the CDP thus include training at the 
Chemical, Ordnance, Biological, and Radiological Training Facility 
(COBRATF) where live nerve agents are used in the conduct of training. 
Toxic chemical training reduces fear of the unknown, solidifies 
personal and operational skills, verifies operational procedures, and 
creates training ``veterans,'' who then share their knowledge and 
experience with other emergency responders. The training at the COBRATF 
may be the only experience with toxic agents a responder may receive 
prior to being faced with a real event.
    In 2007, the Noble Training Facility (NTF) integrated with the CDP. 
The former Noble Army Hospital was converted into a training site for 
health and medical education in disasters that include both acts of 
terrorism and natural disasters. The diverse curriculum includes 
application of public information skills in a major emergency or 
disaster situation, leadership, mass casualty exercises, emergency 
management training, and CBRNE incident management. The facility 
includes traditional classrooms as well as exercise and simulation 
areas, resource centers, and two prototype mass casualty 
decontamination training lanes. It is the only hospital facility in the 
Nation dedicated to training hospital and health care professionals in 
disaster preparedness and response.
    The CDP's training for State and local emergency response providers 
is fully funded by the Department of Homeland Security's Federal 
Emergency Management Agency, through congressional appropriation. 
Transportation, lodging, and meals are provided at no cost to 
responders, their agency or jurisdiction.
    Because the CDP stores and actively uses two forms of nerve agent, 
the COBRATF facility is managed and controlled as a chemical surety 
site. The Surety program is a system of special reliability, safety, 
and security control measures designed to protect the staff, local 
population, and the environment. This program ensures that only 
personnel who meet the highest standards of reliability conduct 
chemical agent operations, that chemical agent operations are conducted 
safely, and that chemical agents are secure at all times.
    The CDP owns or leases 30 buildings on 123.95 acres with 898,244 
square feet of space. The center manages and executes all 
infrastructure support operations for the extended campus, to include 
facilities and grounds maintenance, engineering, and site security. Six 
active dormitories can house 465 responders; an additional 240 rooms 
are pending renovation. A full-service dining facility provides all 
student meals and an on-site lounge provides a place for after-class 
relaxation and networking.
    Numerous Federal and non-Federal training partnerships enable the 
CDP to take advantage of shared knowledge, to ensure the students 
receive the most up-to-date training.
                          metrics for success
    According to an April 2002 report entitled ``Rural Communities and 
Emergency Preparedness'' conducted by the Office of Rural Health 
Policy, Health Resources and Services Administration, U.S. Department 
of Health and Human Services, 65 million Americans live in rural areas. 
A follow-on report entitled ``Rural Emergency--the Safety and Health 
Safety Net'' by Dr. Gary Erisman, Department of Health Sciences, 
Illinois State University, indicated that 29 States have at least one-
third of their population classified as ``rural''.
    While ``rural'' is not typically a student population that we track 
at the Center for Domestic Preparedness (CDP), for the purposes of this 
testimony, rural refers to ``other than Urban Areas Security Initiative 
(UASI) jurisdictions.'' This category is sometimes referenced to as 
balance of State or in the aggregate as balance of Nation. Over the 
past 8 years, nearly half--48 percent--of the CDP's responders have 
been from rural jurisdictions. In the CDP's first decade, more than 
161,000 rural responders have benefited from the CDP's training 
opportunities.
    Total rural responders trained through CDP training programs are as 
follows.

------------------------------------------------------------------------
        Rural Responders                 Total         Percent of Total
------------------------------------------------------------------------
Fiscal year 2007: 25,342........  65,832............  38.5
Fiscal year 2006: 27,112........  61,680............  43.95
Fiscal year 2005: 30,124........  60,296............  49.96
Fiscal year 2004: 23,453........  55,262............  42.43
Fiscal year 2003: 13,096........  25,294............  51.77
Fiscal year 2002: 9,521.........  14,862............  64.06
Fiscal year 2001: 1,586.........  2,522.............  62.88
Fiscal year 2000: 1,412.........  N/A...............  N/A
Fiscal year 1999: 642...........  N/A...............  N/A
Fiscal year 1998: 350...........  N/A...............  N/A
------------------------------------------------------------------------

    In fiscal year 2008 thus far, more than 28,000 rural responders--
nearly 32 percent--of the total responder population that exceeds 
79,000, participated in CDP training programs. At the current rate, we 
anticipate that the total number of rural responders benefiting from 
CDP training in 2008 is expected to exceed 31,000. We anticipate that 
the total population reached through CDP training programs in this 
fiscal year will exceed 100,000.
               training america's rural first responders
    Training for rural first responders poses unique challenges as 
compared to those in urban areas. For instance, 90 percent of law 
enforcement agencies across the Nation consist of departments of 50 
officers or less. In a survey of rural law enforcement officers 
conducted by the Federal Law Enforcement Training Center (FLETC), the 
two most-cited hindrances were freeing up the officer to attend 
training and the cost of training itself. Additionally, in a 2003 
Nation-wide survey of rural law enforcement, officers listed terrorism 
training as the fifth-most imminent training need in their 
jurisdictions, ranking it after drug offenses, computer/internet crime, 
physical assaults, and property offenses. In order to address these 
challenges as well as the significant numbers of volunteers in various 
emergency response disciplines, FEMA's National Preparedness 
Directorate (NPD), with funds provided by Congress fiscal year 2005, 
established the Rural Domestic Preparedness Consortium (RDPC). In 
conjunction with the Emergency Management Institute (EMI), the Center 
for Domestic Preparedness (CDP), and the network of over 50 national 
training partners, the RDPC began providing effective training and 
technical assistance to rural jurisdictions, which are delivered 
regionally in a variety of formats.
    The RDPC is comprised of academic partners with extensive 
experience and unique capabilities in serving the rural emergency 
response community.
  <bullet> East Tennessee State University, Johnson City, Tennessee
  <bullet> Eastern Kentucky University, Richmond, Kentucky
  <bullet> Iowa Central Community College, Ft. Dodge, Iowa
  <bullet> NorthWest Arkansas Community College, Bentonville, Arkansas
  <bullet> The University of Findlay, Findlay, Ohio
                           strategic approach
    On December 17, 2003, the President issued Homeland Security 
Presidential Directive 8 ``National Preparedness'' (HSPD-8). The 
purpose of HSPD-8 is to ``establish policies to strengthen the 
preparedness of the United States to prevent and respond to threatened 
or actual domestic terrorist attacks, major disasters, and other 
emergencies by requiring a national domestic all-hazards preparedness 
goal, establishing mechanisms for improved delivery of Federal 
preparedness assistance to State and local governments, and outlining 
actions to strengthen preparedness capabilities of Federal, State, and 
local entities.'' The National Preparedness Goal (now National 
Preparedness Guidelines) just mentioned helps to guide Federal 
departments and agencies, State, territorial, local and tribal 
officials, the private sector, non-government organizations and the 
public in determining how to most effectively and efficiently 
strengthen preparedness for terrorist attacks, major disasters, and 
other emergencies.
    A unique aspect of the RDPC is that it addresses preparedness 
activities for a broad scope of stakeholders within rural 
jurisdictions. Though the traditional emergency response disciplines 
play a pivotal role in HSPD-8, RDPC will also address equally important 
activities performed by stakeholders across the emergency support 
functions, as specified in the National Response Framework. This will 
include local elected officials, critical infrastructure owners/
operators and others.
    The program is organized to enable both internal networking among 
RDPC partners in coordination with national training partners and, 
through the advisory board, and extensive external outreach mechanism 
to capture inputs from the entire stakeholder community on rural 
domestic preparedness training and relevant information-sharing 
activities. The Advisory Board consists of members from the following 
groups and associations: Adjutants General Association of the United 
States, Fraternal Order of Police, International Association of Chiefs 
of Police, International Association of Directors of Law Enforcement 
Standard and Training, International Association of Emergency Managers, 
International Association of Fire Chiefs, National Association of 
Counties, National Association of EMS Physicians, National Emergency 
Management Association, National Association of Emergency Medical 
Technicians, National Association of Sate EMS Officials, National 
Governors Association, National Rural Health Association, National 
Volunteer Fire Council, and the North American Fire Training Directors.
    In the summer of 2006, the Department of Homeland Security released 
the latest version of the Target Capabilities List (TCL), which is 
comprised of 37 core capabilities. The TCL describes and sets targets 
for the capabilities required to achieve the four homeland security 
mission areas: Prevent, Protect, Respond, and Recover. It defines and 
provides the basis for assessing preparedness for all-hazards events. 
Capabilities are delivered by appropriate combinations of properly 
planned, organized, equipped, trained, and exercised personnel. In 
2006, the RDPC conducted its first comprehensive training requirements 
survey that was modeled to ensure alignment with TCL to support the 
National Preparedness Guidelines. The survey, published as ``Assessing 
the Needs of Rural Emergency Responders: National Training Needs 
Assessment 2006,'' was circulated across a wide array of community 
profiles in rural America to capture input from the appropriate 
stakeholders. Additional focus groups were conducted to ensure the 
training initiatives are appropriately aligned with the overarching 
goals of the States' homeland security strategies and cognizant of the 
evolving needs of particular regions of the Nation. The focus groups 
served to augment the results of the survey. The RDPC analyzed the data 
for trends and gaps and prioritized the results in a report of 
findings. RDPC used this report to develop an annual training agenda of 
balanced investments to meet critical training needs with limited 
resources.
    Important findings from the report are:
  <bullet> Every discipline has significant unmet training needs--for 
        no target capabilities has the training need been completely 
        satisfied.
  <bullet> Substantial numbers of target capabilities were selected by 
        a majority of rural respondents in each discipline as areas of 
        training need in the next 2 years:
    <bullet> Law enforcement--25 target capabilities;
    <bullet> Fire service--27 target capabilities;
    <bullet> Emergency medical service--23 target capabilities;
    <bullet> Health care--24 target capabilities;
    <bullet> General government--28 target capabilities.
  <bullet> ``Planning'' (for terrorism events) was the target 
        capability that the greatest proportion of all rural 
        respondents indicated as a training need for their agencies 
        within the next 2 years.
    <bullet> Each discipline had a different target capability rated as 
            its greatest training need from the standpoint of the 
            number of personnel needing the training:
      <bullet> Law enforcement--responder safety & health;
      <bullet> Fire service--citizen preparedness & participation;
      <bullet> Emergency medical care--CBRNE detection;
      <bullet> Health care--planning for terrorism events;
      <bullet> General government--WMD/hazardous materials response & 
            decontamination.
    The RDPC is currently planning its next assessment due out in 2009.
                     additional training providers
    In order to avoid duplication of effort, the RDPC has forged 
partnerships with academic institutions which have developed FEMA-
certified training products and services in niche areas which directly 
align with the emergency preparedness training needs of rural 
communities. Agreements are in place with the University of California-
Davis to provide training in food safety and agro terrorism issues, 
Telecommunications for the Deaf and Hard of Hearing Inc, training for 
working with Special Needs Populations, and with West Virginia 
University to deliver certified training on homeland security issues 
for campus and university executives.
        leveraging the national domestic preparedness consortium
    The RDPC currently participates in the National Domestic 
Preparedness Consortium's (NDPC) quarterly meetings. This collaboration 
helps facilitate the sharing of ideas and experiences of both 
consortium groups, which adds value for each on a regular basis. The 
NDPC is comprised of seven organizations: (1) the Center for Domestic 
Preparedness; (2) the National Energetic Materials Research and Testing 
Center, New Mexico Institute of Mining and Technology; (3) the National 
Center for Biomedical Research and Training, Louisiana State 
University; (4) the National Emergency Response and Rescue Training 
Center, Texas A&M University; (5) the National Exercise, Test, and 
Training Center, Nevada Test Site; (6) the Transportation Technology 
Center, Incorporated, in Pueblo, Colorado; and (7) the National 
Disaster Preparedness Training Center, University of Hawaii. The 
mission of the NDPC is to identify, develop, test, and deliver training 
to State, local, and tribal emergency response providers, provide on-
site and mobile training at the performance and management and planning 
levels, and facilitate the delivery of training by the training 
partners of the Department.
    In January 2008, a strategy document entitled ``The National 
Preparedness Directorate's Strategic Plan for the National Domestic 
Preparedness Consortium (NDPC)'' was submitted to Congress. This 
strategy describes how the National Domestic Preparedness Consortium 
(NDPC) supports the tenets of national preparedness doctrine and 
effectively addresses States' evolving training needs. The strategy 
also provides direction for coordinating NDPC's programs with similar 
training programs throughout the Nation, including those provided by 
other Federal agencies.
    The RDPC and NDPC are working together to leverage activities being 
conducted by both entities (i.e., State and local outreach, training 
needs assessments, and data analysis) to meet the goals of the 
strategy. Goals such as: design and deliver courses to meet training 
priorities as defined in State Homeland Security Strategies and other 
forecasts of training needs; ensure training is consistent with 
homeland security doctrine; and adapt capacity to meet training demand.
    The RDPC has received the following funding:
  <bullet> Fiscal year 2005, $5,000,000;
  <bullet> Fiscal year 2006, $6,103,000;
  <bullet> Fiscal year 2007, $11,640,000;
  <bullet> Fiscal year 2008, $8,549,000.
    FEMA/NPD's Training Operations Branch currently offers 134 courses 
through 54 training partners Nation-wide. These courses are offered to 
all State and local jurisdictions including those located in rural 
areas.
             future/integration--national training program
    The terrorist attacks of September 11, 2001, and the devastation 
experienced during Hurricane Katrina in September 2005, reemphasized 
the critical importance of training Federal, State, tribal, local, 
private sector, and non-governmental responders in integrated planning, 
decisionmaking, and coordination processes. Training is necessary to 
prepare for, prevent, respond to, recover from, and mitigate the 
effects of incidents, regardless of cause, size, location, or 
complexity, to reduce the loss of life, property, and harm to the 
environment.
    Public Law 109-295, the Post-Katrina Emergency Management Reform 
Act (PKEMRA) of 2006, Section 648, tasks the administrator, Federal 
Emergency Management Agency (FEMA) to `` . . . carry out a national 
training program to implement the National Preparedness Goal, National 
Incident Management System, National Response Plan (now National 
Response Framework), and other related plans and strategies.'' The 
National Training Program (NTP) is a major component of the National 
Preparedness System. Public Law 110-53, Implementing Recommendations of 
the 9/11 Commission Act of 2007, also calls for measures to improve the 
Nation's preparedness through increased emphasis on training programs. 
Additionally, the Hurricane Katrina lessons learned and after-action 
report offer numerous recommendations to improve various aspects of 
training for the Nation's responders.
    Collectively, these documents mandate strengthening the all-hazards 
preparedness of the United States and establish the need for more 
focused coordination, planning, and progressive development of 
capabilities-based training designed to ensure that the Nation's 
responders can effectively execute their responsibilities under any 
combination of emergencies that might occur.
    The National Preparedness Directorate is currently drafting an NTP 
which, as a part of the national preparedness system, will create a 
premier national homeland security training enterprise by providing an 
integrated, capabilities-based method of aligning training with the 
National Preparedness Guidelines, the National Incident Management 
System, the National Response Framework, as well as other related plans 
and strategies. Additionally, this dynamic enterprise will be designed 
to achieve the greatest value of limited resources for all key 
stakeholder groups, of which one is most certainly rural responders. 
This approach enables the clear identification of training needs and 
provides opportunities to realize the greatest return on investment for 
rural responders, urban area responders, and other key stakeholders to 
the greatest degree possible.
    The resultant NTP will provide the architecture to improve the 
coordination and synchronization of training of the Nation's responders 
to prepare for, prevent, respond to, recover from, and mitigate the 
effects of incidents, regardless of cause, size, location, or 
complexity, in order to reduce the loss of life, property, and harm to 
the environment.
    The NTP's vision and mission statements are linked to Department of 
Homeland Security and Federal Emergency Management Agency mission and 
vision statements, and emphasize an all-hazards approach to training 
which is consistent with the intent of Pub. L. 109-295, Pub. L. 110-53, 
Vision for New FEMA, several Homeland Security Presidential Directives, 
and Executive branch guidance.
    The vision of the National Training Program is: A Nation trained to 
prepare for, prevent, respond to, recover from, and mitigate the 
effects of incidents, regardless of cause, size, location, or 
complexity, in order to reduce the loss of life, property, and harm to 
the environment.
    The mission of the Homeland Security National Training Program is 
to: Develop, implement, and maintain a Homeland Security National 
Training Program that creates a premier national preparedness training 
enterprise providing an integrated, capabilities-based method of 
aligning training with National Preparedness Guidelines (NPG) and 
National Exercise Program (NEP), as well as capturing and incorporating 
lessons learned from exercises and real-world events. On January 26, 
2007, the Homeland Security Council's Deputies Committee unanimously 
reached agreement on the NEP Charter and on April 11, 2007, the 
President approved the NEP Implementation Plan. This plan establishes 
the NEP under the leadership of the Secretary of Homeland Security.
    The NEP provides a framework for prioritizing and coordinating 
Federal, regional and State exercise activities, without replacing any 
individual department or agency exercises. The NEP enables Federal, 
State and local departments and agencies to align their exercise 
programs.
    The NTP also lays out specific strategic goals and objectives which 
must be accomplished if we are to achieve our stated mission. The five 
major strategic goals of the NTP are:
    Goal 1: Partner with Federal, State, tribal, and local governments 
and with private sector and non-governmental organizations to build 
training capabilities Nation-wide to prepare for, prevent, respond to, 
recover from, and mitigate the effects of incidents, regardless of 
cause, size, location, or complexity, in order to reduce the loss of 
life, property, and harm to the environment. The NTP will accomplish 
this goal through a series of major objectives designed to improve 
relationships and foster cooperation within the responder community.
    Goal 2: Align emergency responder training with the National 
Preparedness Guidelines (NPG). This goal will be accomplished by 
ensuring that responder training at all levels of government is 
consistent with the NPG. A critical part of aligning training to the 
NPG is ensuring that training is aligned with the Target Capabilities 
List (TCL).
    Goal 3: Coordinate the integration of all hazards training and 
exercise programs. A key component of integrating training and exercise 
programs will be management and upkeep of the National Incident 
Management System and the National Response Framework.
    Goal 4: Optimize management practices. The NTP establish meaningful 
performance metrics, measures, and outcomes and also be measured in 
accordance with the President's Management Agenda and Program 
Assessment Rating Tool.
    Goal 5: Develop a closer link between training and exercises. 
Experience has shown that exercises are the best method of evaluating 
training effectiveness. Because the TCL includes specific, measurable 
preparedness and performance measures of the 37 capabilities needed to 
address a broad range of man-made and natural disasters, it becomes the 
primary tool to link training and exercises.
    The NTP will also address several key training policy issues. 
Addressing these policy issues is vital to establishing the framework 
which will allow the Nation's response community to work in an 
integrated and coordinated process to achieve the NTP strategic goals.
    Some of these key policy issues include:
  <bullet> Who needs to be trained?
  <bullet> What specific skills do responders need and what tasks 
        should they be trained to perform?
  <bullet> How can the Nation best increase training capabilities?
  <bullet> Standardize training. Section 647, Pub. L. 109-295, PKEMRA 
        2006, requires FEMA to ``Support the development, promulgation, 
        and regular updating, as necessary, of national voluntary 
        consensus standards for training.''
  <bullet> How can we best establish an all-hazards core curriculum, 
        standardize instructor qualification and certification, and 
        streamline course development and approval?
  <bullet> How do we utilize the TCL in establishing a closer linkage 
        between training and exercises?
  <bullet> What resources are required and available to accomplish NTP? 
        Which authorities are required for Federal training centers and 
        organizations to train private sector, non-governmental 
        organizations, private citizens, and international responders?
    As the National Preparedness Directorate begins to implement the 
NTP, senior officials at all levels will want to know what progress is 
being made. While the number of responders trained provides an 
indication of progress toward meeting established objectives, data on 
the quality and effectiveness of the training is also important. The 
TCL provides specific, measurable preparedness and performance measures 
for evaluating and improving capabilities as part of the National 
Preparedness Cycle. The effectiveness of training delivering will be 
evaluated using the Kirkpatrick's four levels of evaluation to 
effectively measure success of the program.
    My staff is currently drafting a charter for the NTP. Once the 
charter has been staffed and approved with input from the training 
partners and key stakeholder groups, we will develop an implementation 
plan.
                               conclusion
    The 2007 integration of the Noble Training Facility and the CDP 
suggests a need to review the health care curriculum in order to ensure 
the needs of healthcare response providers and receivers are served 
across the Nation. The threats within the medical community--to include 
events such as pandemic flu, health care facility decontamination 
following an incident, serving the special needs population, mass 
prophylaxis, and mass casualty events--are on-going threats that must 
be addressed in the CDP's health care curriculum.
    As you've heard here today, the CDP's training programs have 
continued to grow, expand, and adapt to the needs of the Nation's 
responder population. As we have grown, we have not lost sight of the 
responders' needs--both rural and urban.
    I look forward to answering any questions you may have.
    Thank you.

    Mr. Carney. Thank you for your testimony.
    I now recognize Director Walker to summarize his testimony 
for 5 minutes.

STATEMENT OF JAMES M. WALKER, JR., DIRECTOR, ALABAMA DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Walker. Good morning, Mr. Chairman, Mr. Rogers. Thank 
you for coming to Alabama. I know you have been here before, 
trained in Pensacola and I have invited you to spend your 
summer vacation in Gulf Shores on the beach if you will bring 
your family down----
    Mr. Carney. I will take it up with Jennifer right now.
    [Laughter.]
    Mr. Walker. I have a request, I know that you all can move 
mountains in the Congress, if you would take some of this 
humidity back to Washington with you.
    Mr. Rogers, it is always good to see you. Folks at home, we 
do not get the opportunity to thank you enough for the great 
work you do for us on this committee but also on Armed Services 
and on the Agriculture Committee. I wanted to tell you, as I 
was driving up through Talladega County yesterday, I passed 
about a 30-year-old pickup truck with a bumper sticker on the 
back that said ``If you eat, then you are involved with 
agriculture.''
    [Laughter.]
    Mr. Walker. We are here today really at the Nation's best 
facility. I am pleased to be joined by my friend Dennis 
Schrader, who was my colleague in Maryland for years, and so we 
are actually glad to have him in FEMA, he understands some of 
the problems that we face. Also the presence of the two 
universities. I would like you to know that on my small staff 
in Montgomery, I have two of my employees that are continuing 
their education right now at Auburn University, Mr. President; 
and I have two of my employees that are going to Jacksonville 
State University working on a masters degree in homeland 
security studies. If we had more money, we would certain 
purchase more of the dogs that are trained here, they do a 
terrific job. Then my friend from Randolph County, I think you 
can see all the uniformed folks here today, they really do 
represent the best first-responder community in the Nation, and 
they absolutely love this country.
    It is interesting that when we talk about rural America, 
you know, they are faced with a lot of challenges. The fact 
that we have got this first-class facility here in Alabama, we 
take advantage of it, but one of the challenges that rural 
America faces is when you get to some of these local 
municipalities, police departments, sheriffs' departments, fire 
departments, they are really only about one deep in many 
positions. It is very, very difficult to free people up for 
training. Even though the training is free, that is just a 
challenge that rural America faces and I would ask the Chairman 
that at some point down the line, if the committee would look 
at what I see as an impending manpower shortage among first 
responders in this country.
    I think that young people are being pulled in many 
different directions on what to do with their lives, whether to 
become military, whether to become doctors or surgeons. At some 
point, we are going to hit critical mass where we are going to 
have a difficult time keeping our streets safe because we 
cannot keep enough police officers in uniform and firefighters, 
et cetera. One of the statistics that I like to use is that the 
Alabama Fire College 10 years ago had over 2,000 applicants to 
come in and receive their basic firefighter training. Last 
year, they had just over 300. So young people are not making 
the decisions that they used to make and that is going to be a 
challenge for rural America. Kind of like finding that hometown 
doctor to live in rural America to treat folks, it is going to 
become the same with first responders.
    That is why in rural America, there is a real reliance on 
volunteers. You know, here in Alabama, about 80 percent of our 
firefighter community are volunteers. God love them, I mean 
these folks are incredibly patriotic. They take time away from 
their families, from the things that they enjoy doing to stand 
on the street corner on Saturday morning with a big rubber boot 
and have you throw your change in there so that they can go buy 
a piece of equipment to help you if your house catches on fire. 
I mean these are terrific people. We have guide teams in the 
State of Alabama that will come and help look for folks that 
have gotten lost. They are all volunteers, they do all of this. 
So we have got an obligation to train them as well.
    So that really is the challenge. The Congress has been so 
kind, rightfully so, to rural America, in the homeland security 
grant dollars that you have pushed our way. Now we have seen a 
decline in the last few years, but we have got to be careful 
not to do that, I would ask. Because we had a big surge post-9/
11 and we were able, in every State, Alabama, Pennsylvania, to 
buy incredible capabilities. You know, we have outfitted 54 
mutual aid response teams around the State of Alabama. We have 
got heavy rescue, medium rescue, urban search and rescue, swift 
water rescue, light rescue. We have got mortuary teams, we have 
all of this capability that under mutual aid we can now push in 
and around the State. In fact, post-Katrina, we sent thousands 
of Alabamians, even though we were an affected State, thousands 
of Alabamians to Louisiana and Mississippi with a lot of our 
homeland security equipment to help our neighbors.
    So that is what rural America does, they provide the surge 
capacity in a large disaster. By getting capability into rural 
America, in the past, I think that you would see a rural 
community be devastated by an event and they would have to 
wait. They would miss the golden hour because urban 
capabilities would have to come over and help them. With these 
homeland security dollars, we have been able to start building 
basic capabilities in rural America, so that they can help 
themselves, which is incredibly important.
    I wanted just to mention that during my Governor's tenure 
as Governor, since Bob Riley has been Governor of Alabama, we 
have at the State--just at the State level--we have responded 
to three major hurricanes, a tropical storm, 371 tornadoes, 607 
floods, 1,464 hazardous material spills, 116 bomb threats, 22 
ice storms, 91 incidents that involved air or rail modes of 
transportation, 17 terrorist threats or hoaxes, eight reported 
earthquakes, two virus outbreaks and a dam failure. That is 
just those that have required State assistance. Can you imagine 
all of the hundreds of events that rural communities, who 
usually do not call government as their first line of action? 
They try to take care of themselves. So your volunteer first 
responders, one deep, we give them capabilities, we train them 
and then we have to have the money to take trained people with 
their equipment and bring them together in a multi-disciplinary 
and jurisdictional faction so that they can handle disasters in 
and of themselves.
    That is really the system that I think FEMA is looking for 
and that is what we want in our State. We want self-sufficiency 
and I think we are moving in that direction.
    I think my statement captures some other factors, Mr. 
Chairman, so that is a brief summary and I will look forward to 
any questions that you might have for me later.
    [The statement of Mr. Walker follows:]
               Prepared Statement of James M. Walker, Jr.
                             July 22, 2008
    Mr. Chairman and Members of the committee, thank you for the 
opportunity to appear before you today representing State and local 
interests during this important field hearing.
    As Director of the Alabama Department of Homeland Security, it is 
my responsibility to manage the homeland security preparedness programs 
and initiatives Governor Bob Riley wants in place to serve Alabama's 
citizens and communities. During these past 5\1/2\ years of the Riley 
administration in Alabama, our State has seen exponential improvements 
in first responder capabilities, citizen preparedness, and situational 
awareness.
    Today, in my third appearance before the subcommittee, you have 
asked me to address homeland security in rural America, and 
specifically training of first responders in rural America. Let me 
begin by stating there are three major components to homeland security 
training: proper equipment, individual and collective training, and 
exercises. Following a logical sequence, first responders should be 
properly equipped, trained to standard on individual, team, and 
organizational skills, and exercised with their equipment and training 
as part of a multi-agency or jurisdictional exercise. This model is 
commonly referred to as the crawl, walk, and run methodology to 
training.
    In rural America, many of our first responders are volunteers. In 
fact, volunteer firefighters represent approximately 80 percent of the 
total fire service organizations in Alabama. As volunteer 
organizations, they are routinely in need of new equipment and funds to 
help them train and conduct exercises.
    In rural areas, local governments do not have the ability to 
generate the tax revenue capable of outfitting and training all the 
first responder organizations serving their population. The homeland 
security grants the Congress has made available to rural America are 
making a sea change of difference in how rural areas can prepare for 
and manage disasters.
    On behalf of the rural first responders in Alabama, and for my 
colleagues around the country, please allow me to thank the Congress 
for the homeland security grants you appropriate every year and make 
available to rural America. Your continued support is much appreciated 
and much needed.
    It is interesting to note that annually more homeland security 
grant dollars go to the 50 largest cities in America than they do all 
of rural America and the rest of the country combined. Yet, the 
metropolitan areas have a much greater ability to generate revenue to 
outfit, train, and sustain first responders. I highlight this fact 
because if we are truly serious about protecting our country, we must 
also recognize America will only be as strong as her weakest link. We 
must develop and sustain capabilities everywhere, even in rural 
America, so we are able to safeguard lives and protect property.
    A problem rural America faces is that it is not the proverbial 
squeaky wheel. People in rural America are self-reliant. They 
understand that hardship and disaster are a part of life and the fabric 
of history. They know how to cope with difficult circumstances and by 
their very nature are resilient and tough.
    Calls to Government for assistance are not the first calls made by 
rural Americans. They will always try to solve their own problems first 
with the help of neighbors, friends, and volunteers before they 
willingly invite the Government into their lives. This philosophy 
conflicts with Americans who believe the Government is responsible for 
their livelihood and for solving all of their problems.
    Rural Americans are disaster-experienced problem-solvers and do not 
sit back and wait for someone to solve their problems for them. As a 
result, they will remain the silent majority, and, in some cases, 
become forgotten because they don't write talking points and clamor for 
face time in front of news cameras and microphones. They simply do what 
needs to be done to restore routine in their communities and lives 
after disaster strikes.
    I congratulate my fellow citizens in Iowa and the Midwest for their 
quiet resolve and fierce determination to nobly and proudly recover 
from one of the worst natural disasters in their history. Iowans today 
are showing us the strength and silent steely resolve of the American 
spirit in rural America.
    Rural Americans are criticized in some circles for clinging to 
religion, but I thank God they do. The beliefs and shared values of 
rural America are the moral anchors of this country, and represent the 
ideals and principles most of us associate with the America of our 
hopes and dreams. We can never risk losing the faith rural Americans 
have in their government. We will be in serious trouble as a Nation if 
we do. One way we keep this faith is by responding with all the 
assistance our Government has to offer in the wake of a disaster that 
overwhelms a rural area.
    I am reminded of the soldier who was once asked if he'd ever seen 
heavy combat. The soldier's response was, ``If you are in combat, it's 
heavy!'' The same can be said of living through a disaster. You can ask 
if a hurricane, tornado, flood, or fire was severe and devastating and 
the answer will be, ``If it destroys your home and injures you or a 
loved one, it is severe and devastating.'' This maxim holds true 
whether the disaster rolls through downtown Atlanta or rural Lawrence 
County, Alabama. The difference is downtown Atlanta is more likely to 
qualify for Federal Individual Assistance than Lawrence County.
    The Robert T. Stafford Disaster Relief and Emergency Assistance Act 
sets forth the guidelines for requesting Federal assistance. This Act 
is designed to work for disaster victims and not against them. 
Unfortunately, it was used against rural victims during a recent 
tornado outbreak in Alabama.
    The truth is there is no thermometer that establishes a scalable 
threshold for who qualifies for Individual Assistance in the wake of a 
disaster. Earlier this year parts of Tennessee and Alabama were hit by 
the same outbreak of tornadoes, causing death and destruction in both 
States. However, as if a disaster recognizes State boundaries, the 
damaged parts of Tennessee qualified for Individual Assistance, but the 
damaged parts of Alabama did not. I can tell you it was very difficult 
for Governor Riley to explain this denial of Individual Assistance to 
the rural Alabamians who lost loved ones and everything they owned in 
that disaster.
    Rural areas need homeland security capabilities, training, and 
assistance just like their urban counterparts. They have the same 
responsibilities to safeguard lives and protect property. In many 
cases, rural areas have a limited ability to respond until a needed 
capability arrives from a better equipped urban area to assist. A self-
sufficient rural area is often the first line of defense to immediately 
containing an event or disaster before it escalates into something much 
larger and more destructive.
    Additionally, homeland security capabilities in rural areas 
represent the surge capacity and increased capability we rely upon to 
assist in large-scale disasters. Under the Emergency Management 
Assistance Compact thousands of Alabamians and pieces of homeland 
security equipment deployed from Alabama to both Louisiana and 
Mississippi to assist our neighbors in their response to Hurricane 
Katrina. As we meet here today, trained and properly equipped 
Alabamians are deployed to both Iowa and California to assist our 
fellow Americans with disasters in their States.
    During Bob Riley's tenure as Governor of Alabama, which began in 
January 2003, State assets were requested to assist our local 
communities with the following events: 3 major hurricanes, 1 tropical 
storm, 371 tornadoes, 607 flood warnings, 1,464 hazardous material 
spills, 116 bomb threats, 22 ice storms and winter storm advisories, 91 
incidents involving air and rail modes of transportation, 17 terrorist 
threats and/or hoaxes, 8 reported earthquakes, 2 virus outbreaks, and 1 
dam failure. This list is far from exhaustive, and does not reflect the 
hundreds of events local governments and rural areas did not seek State 
assistance. This is an enormous workload for predominantly rural first 
responders, considering it does not reflect the routine police, fire, 
and other first responder duties performed on a daily basis.
    As a final point, history teaches us that suspected terrorists are 
prone to planning, living, and training in rural areas. It is 
imperative rural law enforcement have the investigative tools and 
technology needed to combat terrorism in the 21st century. Please 
consider the following:
  <bullet> The D.C. snipers murdered in Alabama before terrorizing and 
        spreading panic in the National Capitol Region.
  <bullet> Two of the 9/11 hijackers were detained for traffic 
        violations in rural Marion County, Alabama before they 
        participated in the deadly attacks that killed over 3,000 of 
        our fellow citizens.
  <bullet> Hundreds of weapons, improvised explosive devices, and 
        rounds of ammunition were confiscated and destroyed recently in 
        parts of rural counties in northeast Alabama. These instruments 
        of death were being stockpiled by domestic hate groups that 
        still regrettably proliferate in rural America.
    To ignore the need for a level playing field between urban and 
rural law enforcement officials and other first responders would be a 
grave mistake for the future safety and security of our country.
    I close by stating we continue to make enormous progress in 
securing our country, but a great deal of work remains. Federal, State, 
and local authorities are collaborating better now than at any time in 
our Nation's history. It is important to remember security for our 
citizens is not a sprint, but a marathon. Local, State, and Federal 
efforts must be sustained for the long haul, and I worry many of our 
citizens do not have the same long view of history as our adversaries. 
The same holds true for natural disasters. They have always been a part 
of the human experience, and will remain.
    Thank you for the privilege of appearing before you today. I look 
forward to answering any questions you may have.

    Mr. Carney. Thanks for your testimony.
    I now recognize Dr. Meehan for 5 minutes.

  STATEMENT OF WILLIAM MEEHAN, PRESIDENT, JACKSONVILLE STATE 
                           UNIVERSITY

    Mr. Meehan. Thank you, Chairman Carney, Congressman Rogers; 
thank you for the opportunity to testify today. I speak as 
President of Jacksonville State University, to talk about our 
role in emergency management.
    I know Congressman Rogers is very familiar with 
Jacksonville State, having been our graduate twice over. We 
appreciate that. If we had a law school, maybe he would have 
gone to law school with us.
    But for those of you who do not know, Jacksonville State 
celebrated its 125th year this year in 2008.
    Mr. Carney. Congratulations.
    Mr. Meehan. Thank you, sir.
    In 1883, we started as a State normal school, but we have 
now grown to over 9,000 students offering 45 undergraduate 
degree programs, 24 graduate programs and we occupy a 459-acre 
campus just 7 miles north of us here.
    We have had a number of accomplishments that are in my 
testimony for homeland security. I am very proud of our role in 
helping to establish the Center for Domestic Preparedness here 
at McClellan.
    Shortly after the announcement that Fort McClellan would be 
closed, it became obvious that there was no planned use for the 
Army's Live Agent Training Facility and it would remain an 
eyesore unless it was dismantled, but doing so would cost 
tremendously. Congress had just passed the Nunn-Luger-Domenici 
Act, which started the domestic preparedness initiative in 
1996. JSU took a leading role, along with others, to develop a 
concept of a first responder training facility. The 
establishment of the CDP became a reality through the efforts 
of Jacksonville State University and strong local commitment 
through the Chamber of Commerce along with the help of Senator 
Shelby, Senator Sessions and then-Congressman Bob Riley, now 
Governor of our great State.
    But through those efforts with CDP, we at JSU became 
acutely aware of the need for emergency management education 
programs to address both terrorism threats as well as natural 
disasters. JSU has been providing online academic programs for 
emergency management and first responders since 1998. So even 
prior to the events of September 11, 2001, JSU had academic 
programs in place to address planning considerations for both 
terrorism and natural disaster events. Recognizing that 
terrorist attacks, while devastating, cannot match the 
destructive potential of Mother Nature, our degree programs 
continue to be designed to strike a balance between natural 
disasters and terrorist or man-made events.
    We currently offer bachelors and masters degrees in 
emergency management. We know there is a critical need for 
individuals with doctoral degrees to teach emergency management 
and homeland security courses in other colleges and 
universities. Therefore, we are now in the process of 
establishing a doctoral program in emergency management. With 
the Association of Public-Safety Communication Officials 
International, APCO, and through a partnership with Gadsden 
State Community College, we developed the APCO Virtual College 
where many 911 operators, who are sometimes referred to as the 
Nation's true first responders, are able to pursue academic 
programs in public safety, emergency management and homeland 
security.
    In order to rapidly get seasoned professionals into the 
field and make the greatest impact on national security, our 
programs are targeted toward mid-career professionals in the 
public safety arena. Recognizing that these individuals must 
continue working while earning a degree, the courses are 
completely on-line. The success of these courses and programs 
has been greatly rewarding and ultimately benefit the United 
States and other nations with the work of our students. We have 
had students from 49 States, several territories and many 
foreign countries, and we have had students represented on all 
seven continents. To date, we have graduated 173 masters, 85 
baccalaureate emergency management degrees. Our greatest 
impact, however, is through the accomplishment of our 
graduates, as Mr. Walker mentioned, as many currently hold 
positions with public, private and non-profit sectors. For 
example, our graduates work for local and State emergency 
agencies, the Department of Homeland Security, FEMA, Red Cross, 
Centers for Disease Control. Furthermore, our graduates can 
also be found on Capitol Hill, the Pentagon and overseas in 
both civilian and military-oriented positions. To illustrate 
our program's popularity, enrollment in last fall, 2007, 
included 232 students in the baccalaureate program, 48 in 
certificate programs, and 80 pursuing masters degrees.
    JSU has actively supported local, State and national 
emergency management and homeland security initiatives through 
the provision of contractual assistance in a number of areas. 
We have assisted with CSEPP, Chemical Stockpile Emergency 
Preparedness Program, and have included development of 
emergency operation plans for municipalities and other 
entities, design and support for annual exercises, drills and 
plans for special needs population, and service as a medical 
coordinator.
    Another academic program with a strong connection to the 
Center for Domestic Preparedness is the Lurleen B. Wallace 
College of Nursing and Health Sciences at JSU. Created by the 
legislature in 1967 to meet the educational needs of the State, 
JSU's nursing program educates and graduates exemplary health 
care professionals known for expertise in critical thinking and 
decision-making. That college has had an extraordinary increase 
in its population, as you are aware. That has grown with a 120 
percent increase since 2001. Just last year, the program 
graduated 11 Master of Science in Nursing, 157 Bachelor of 
Science in Nursing students and enrollment for fall 2007, last 
year, was 50 in the MSN program and 423 in the baccalaureate 
program in nursing.
    Both our undergraduate and graduate nursing students have 
experiences at the Center for Domestic Preparedness, which 
makes it a unique experience for those students. Recognizing 
the importance of preparing a health care workforce with 
knowledge and skill in disaster response, emergency and 
domestic preparedness, the concepts are integrated through a 
variety of undergraduate and graduate courses in the nursing 
curriculum. Our students have the unique opportunity to 
participate in courses offered through the Center for Domestic 
Preparedness.
    We have indeed had a big impact in a short period of time, 
and our work will continue in these efforts. I believe that the 
initiative of our doctoral program will have an even greater 
contribution to the safety and security of our Nation. JSU will 
also continue to be a significant contributor to helping our 
emergency planning and response professionals prepare for 
terrorist and natural disaster management.
    I appreciate the opportunity to summarize my testimony and 
thank you for your leadership in Congress.
    [The statement of Dr. Meehan follows:]
                  Prepared Statement of William Meehan
                             July 22, 2008
    Chairman Carney and Congressman Rogers, thank you for this 
opportunity to testify before the Homeland Security Subcommittee on 
Management, Investigations and Oversight. I am President of 
Jacksonville State University (JSU), and it is my pleasure to be here 
as a witness because this is an opportunity to highlight the 
contributions and achievements of JSU in the area of preparing our 
Nation's first responders.
    Jacksonville State University (JSU) celebrated 125 years on 
February 22 of this year. Founded in 1883 as a State normal school, JSU 
currently enrolls over 9,000 students, offers 45 undergraduate programs 
and 24 graduate majors and has grown into a 459-acre main campus with 
59 major buildings and other locations here at McClellan, Gadsden and 
Fort Payne. We have earned more accredited programs than any other 
regional university in our State, including discipline specific 
accreditations that are unique to only JSU in the State of Alabama. It 
is also noteworthy that we have as many Fulbright scholars as any other 
institution in Alabama, an indication of our university's exemplary 
faculty and our commitment to scholarship and global education.
    JSU plays an integral role in the economic development of Northeast 
Alabama. Our graduates contribute significantly to the growth of the 
region and the State, and it is a goal of the University to further 
promote the health and wealth of Northeast Alabama. JSU is focused on 
outreach opportunities that will better the lives and economic well-
being of the citizens of Alabama. To that end, JSU has a long history 
and strong commitment to preparing emergency response professionals for 
any situation: terrorist attack, natural disaster or other large-scale 
emergency. In fact, in May 2008 the National Weather Service designated 
JSU as the first ``Storm Ready'' university in Alabama.
    Now I would like to briefly tell you about some of our 
accomplishments in Emergency Management and Homeland Security. JSU 
became involved in this arena while working with the redevelopment of 
Fort McClellan many years ago. We at JSU are indeed proud of our role 
in helping to establish the Center for Domestic Preparedness. Shortly 
after the announcement that Fort McClellan would close, it became 
obvious that there was no planned use for the Army's live agent 
training facility, and it would remain as an eyesore since the cost of 
dismantling the structure would be prohibitive. Congress had just 
passed the Nunn-Lugar-Domenici Domestic Preparedness Initiative in 1996 
and JSU took the initiative to develop a proposal to utilize the live 
agent facility, along with other facilities at Fort McClellan, in order 
to prepare civilian first responders for a terrorist attack involving 
chemical weapons. As many of you may remember, JSU then took the lead 
role in marketing the concept of a first responder training facility. 
The establishment of the CDP became a reality both through the efforts 
of JSU and the strong support of the local community, Calhoun County 
Chamber of Commerce and Senator Shelby, Senator Sessions and then-
Congressman Bob Riley, now Governor of the great State of Alabama.
    Through our efforts in developing the CDP, we at JSU became acutely 
aware of the need for emergency management education programs to 
address both the terrorism threat as well as natural disasters. JSU has 
been providing on-line academic programs for emergency managers and 
first responders since 1998. So, even prior to the events of September 
11, 2001, JSU had academic programs in place that addressed planning 
considerations for both terrorism and natural disaster events. 
Recognizing that terrorist attacks, while devastating, cannot match the 
destructive potential of Mother Nature, our degrees continue to be 
designed to strike a balance between both natural disasters and 
terrorist (man-made) events.
    We currently offer bachelors and masters degrees in emergency 
management. We know there is a critical need for individuals with 
doctoral degrees to teach emergency management and homeland security 
courses in other colleges and universities; therefore, JSU is now in 
the process of establishing a doctoral program in emergency management. 
JSU is also a member of the Department of Homeland Security Center for 
the Study of Preparedness and Catastrophic Event Response and the 
Homeland Security Defense Education Consortium. Also, with the 
Association of Public-Safety Communication Officials International 
(APCO), and through partnership with Gadsden State Community College, 
we developed the APCO Virtual College whereby many 9-1-1 operators, who 
sometimes are referred to as the Nation's true first responders, are 
able to pursue academic programs in public safety, emergency management 
and homeland security.
    In order to rapidly get seasoned professionals in the field, and 
make the greatest impact on national security, our programs are 
targeted toward mid-career professionals in the public safety arena. 
Recognizing that these individuals must continue working while earning 
a degree, the courses are completely on-line. The success of these 
programs has been greatly rewarding--and ultimately beneficial to the 
United States and other nations through the work of our students and 
graduates. We have had students from 49 States, several territories and 
many foreign countries, and we have had students represented on all 7 
continents. To date, we have graduated 173 with masters and 85 with 
baccalaureate emergency management degrees. Our greatest impact, 
however, is through the accomplishments of our graduates, as many 
currently hold key positions with the public, private, or non-profit 
sectors. For example, our graduates work for local and State emergency 
management agencies, the Department of Homeland Security, FEMA, the Red 
Cross, and the Center for Disease Control. Indeed, many of these 
graduates and currently enrolled students' preferred career path is to 
serve rural communities. Furthermore, our graduates can also be found 
on Capitol Hill, at the Pentagon and overseas in both civilian and 
military-oriented positions. To illustrate our program's popularity, 
enrollment in fall 2007 included 232 students in the baccalaureate 
program, 48 in the certificate program, and 80 pursuing the master's 
degree.
    Finally, JSU has actively supported local, State and national 
emergency management and homeland security initiatives through the 
provision of contractual assistance in a number of areas. Several were 
related to the Alabama Chemical Stockpile Emergency Preparedness 
Program (CSEPP) and included development of Emergency Operations Plans 
for municipalities and other entities; design and/or support for annual 
exercises/drills; plans for special needs population, and service as 
medical coordinator.
    I am very proud of our accomplishments, and I believe that JSU has 
already helped to make our country a safer place in which to live. We 
have indeed made a big impact in a short period of time, and our work 
will continue in these efforts. Along with the significant 
contributions our bachelors and masters degree recipients are making 
globally, I believe that the initiation of our doctorate program will 
have an even greater contribution to the safety and security of our 
Nation. Furthermore, through our contractual and community services, 
JSU will also continue to be a significant contributor in helping our 
emergency planning and response professionals to be prepared for 
terrorist or natural disaster events.
    Another academic program with a strong connection to the Center for 
Domestic Preparedness is the Lurleen B. Wallace College of Nursing and 
Health Science (CNHS) at Jacksonville State University. Created by the 
Legislature of the State of Alabama in 1967 to meet the educational 
needs of the State, JSU's nursing program educates and graduates 
exemplary health care professionals known for expertise in critical 
thinking and decisionmaking. The College of Nursing and Health Sciences 
(CNHS) continues to experience extraordinary growth with a 120 percent 
increase in enrollment since 2001. Just last year the program graduated 
11 Master of Science in Nursing students and 157 Bachelor of Science in 
Nursing Students. Enrollment for fall 2007 was 50 in the MSN program 
and 423 in the BSN program, numbers indicative of the growth in this 
discipline so vital to the region, indeed the Nation.
    However, a Nation-wide nursing shortage threatens our rural 
communities. Since fall 2004, 310 qualified nursing applicants have 
been denied admission at Jacksonville State University's (JSU) College 
of Nursing and Health Sciences (CNHS) due to lack of nursing faculty, 
classrooms, and clinical sites. In 2006 the Alabama Board of Nursing 
reported that 4046 qualified applicants were denied admission to 
nursing programs in Alabama; while at the national level more than 
46,000 qualified applicants were denied. Rural communities need these 
qualified nurses who are prepared to respond to disasters, natural or 
man-made.
    Both undergraduate and graduate nursing students have clinical 
experiences at the Center for Domestic Preparedness. Recognizing the 
importance of preparing a health care work force with knowledge and 
skill in disaster response, emergency/domestic preparedness, concepts 
are integrated throughout various undergraduate and graduate courses in 
the curriculum. Our students have the unique opportunity to participate 
in courses offered through The Center for Domestic Preparedness, which 
is viewed by faculty and students as an extremely valuable learning 
experience.
    Just last week, two of our Master of Science in Nursing students 
attended the Pandemic Influenza Preparedness Courses here at the CDP. 
Their week concluded with the opportunity to participate in live nerve 
agent training, a rather unique experience for a health care provider. 
While the likelihood of an actual nerve agent event is slim, the 
lessons learned about the importance of personal protective equipment 
and decontamination can be applied to many emergency and disaster 
situations. As a result of such training, one of our recent graduates 
led the development of a Pandemic Influenza Response Plan for a large 
school system in Alabama. Our MSN graduates are employed in diverse 
roles, including school health, health care administration, education, 
and clinical services. Knowledge of emergency preparedness, coupled 
with the nationally renowned training offered through the CDP, provides 
our graduates with a foundation to positively influence planning and 
response efforts in their respective institutions and communities.
    Jacksonville State University clearly plays an important role in 
preparing first responders; a role that is in keeping with our 
University's mission and critical to our community at large. We 
continue to capitalize on these disciplines and reach out to potential 
community, State and Federal partners. We at JSU strongly encourage the 
Federal Government's contribution and support of training and preparing 
our Nation's rural first responders. I thank you for your leadership on 
this issue, and I am delighted to answer any questions you may have at 
this time.

    Mr. Carney. Thank you.
    I now call on Mr. Pearce to summarize his statement for 5 
minutes.

    STATEMENT OF JOHN C. PEARCE, ASSOCIATE DIRECTOR, CANINE 
          DETECTION TRAINING CENTER, AUBURN UNIVERSITY

    Mr. Pearce. Good morning, Chairman Carney and Congressman 
Rogers. On behalf of Auburn University's President Jay Gogue, 
welcome to our Fort McClellan facility. Thank you for the 
opportunity to talk about our detector dog research and 
training program and the benefits of detector dog teams for law 
enforcement and first responders.
    The Auburn University program is focused on enhancing the 
use of dogs for search and rescue and detecting hazardous, 
unsafe or illegal substances and materials through basic 
research, development and instruction. Along with our College 
of Veterinary Medicine, we have a 17-year track record of 
helping local, State and Federal agencies fulfill their public 
safety and national security missions.
    For example, Auburn-trained detector dog teams are 
screening for explosives on the mass transit system in Atlanta. 
Here in Alabama, our dog teams are helping keep firearms from 
entering Lee County schools and interdicting illicit drugs 
along part of Interstate I-20. They are also protecting Federal 
buildings and detecting explosives for the United States forces 
in Iraq. We are proud of the service that they provide to our 
State and Nation.
    Detector dog teams are ideal for protection of rural 
communities and serve as a very visible deterrence to crime and 
terrorism. A well-trained team is the most capable, readily 
available and least expensive detection tool for local law 
enforcement and public safety officials. They are also an 
important force multiplier for agencies in rural areas where 
resources are stretched thin. These agencies do not have the 
luxury of multiple overlapping jurisdictions, but they often 
face the same threats as metro areas, including illegal drug 
reduction, school violence and the challenges of special 
events. A detector dog team is a solution for these scenarios.
    Congressman Rogers has been a proponent of detector dog 
teams for domestic and military uses for many years. Your 
support of research, development, standards and innovation in 
canine detection has resulted in safer communities and enhanced 
our national security. Thank you for your efforts.
    Mr. Rogers. Thank you.
    Mr. Pearce. In order for the benefits of detector dog teams 
to be realized, they must have good equipment, be well-trained 
and equipment and training must be well-maintained just like 
any other facet of law enforcement or emergency preparedness.
    The most important piece of equipment is the dog. We 
recommend it be bred through selective breeding for a long 
service life and to successfully capture the most important 
traits. Just as important, proper preparation of the puppy is 
needed so it can express the genetics given to it through 
breeding. This is prior to entering a strong training program 
that is equally focused on educating the handler through a 
comprehensive education process. Finally, upkeep of the dog's 
health and ongoing training of the team are necessary to 
maintain its performance over time.
    We believe the Federal Government is essential to 
increasing detector dog resources for local, rural 
jurisdictions in at least four ways:
    First, we recommend that the Government encourage 
development of standards that follow the best practices such as 
those developed by the scientific working group on dog and 
orthogonal detector guidelines.
    Second, we recommend the Federal role in developing funding 
mechanisms to assist local, rural jurisdictions to obtain 
detector dog resources.
    Third, we believe the Government should encourage the 
development of domestic sources of high quality detector dogs.
    Finally, we recommend that the Government encourage 
programmatic research and development efforts to enhance the 
performance and utility of the use of dogs for detection of 
hazardous materials.
    Congressman Carney and Congressman Rogers, this is a brief 
summary of suggestions and concerns that my years of experience 
tells me should be brought before the committee for 
consideration. In my written testimony, I have expounded on 
these issues and covered additional areas that I believe are a 
good example of what a focus on detector dog breeding and 
training can mean for America and the first responders that put 
themselves in harm's way each day.
    The Center and the University truly appreciate the 
committee choosing our facility as a venue to explore the needs 
of our Nation's first responders and I am grateful for the 
privilege to testify. I am pleased to answer any questions you 
may have.
    [The statement of Mr. Pearce follows:]
                  Prepared Statement of John C. Pearce
                             July 22, 2008
    Mr. Chairman and Congressman Rogers, my name is John Pearce and I 
am the Director of Training and Operations for Auburn University's 
Canine Detection Training Center. On behalf of Auburn University 
President Jay Gogue and Acting Vice President for Research, Ralph Zee, 
welcome to our Fort McClellan facility. Thank you for the opportunity 
to talk with you about Auburn's canine detection research and training 
program, the benefits of detector dog teams for local law enforcement 
and first responders, and the Nation's canine detection capabilities.
    The Center that we are in now is part of a comprehensive Auburn 
University program focused on enhancing the use of dogs for the 
detection of hazardous, unsafe or illegal substances and materials 
through basic research, development, and instruction. Along with 
researchers at our College of Veterinary Medicine, we have a 17-year 
successful track record of helping local, State and Federal agencies 
fulfill their public safety and national security missions. These 
agencies include, for example, the Orange County, California, Sheriff's 
Office, the Clayton, GA Police Department, the Federal Protective 
Service, and the U.S. Marine Corps.
    For example, Auburn trained detector dog teams are screening 
passengers for explosives on the mass transit system in Atlanta and 
Amtrak inter-State commuter rail lines. Here in Alabama, Auburn-trained 
dog teams are helping keep explosives and firearms from entering Lee 
County schools and interdicting illicit drugs along the I-20 corridor 
from Leeds to Heflin. They are also protecting Federal buildings and 
detecting improvised explosive devices for U.S. forces in Iraq. We are 
proud of the service they provide to our State and Nation.
    As the most capable, readily available and least expensive tool for 
the detection of explosives and illicit drugs, a well trained detector 
dog team is ideal for the protection of rural communities and serves as 
an important force-multiplier for them to deal with an often large 
service area with only a few first responders. The detector dog team is 
a complement to and extends the capabilities of first responders as 
well as providing a very visible deterrence to crime and terrorism. 
From an emergency management perspective, rural communities do not have 
the luxury of close-by mutual aid in terms of either detector dog or 
bomb squad resources but they increasingly do have significant threats 
of illicit drug production, potentially catastrophic school violence 
events, special event venues in the form of regional sporting and 
festivals, and an under-appreciated level of important national 
infrastructure in the form of, necessarily less-well monitored, 
pipelines, water resources, and power generation/transmission that 
could be a target of terrorism. A well-trained and -maintained detector 
dog team resource in such a community can serve as an important 
regional first responder asset and potentially important homeland 
security asset.
    In order for the benefits of detector dog teams to be realized, 
those teams must have good equipment, be well-trained, and the 
equipment and training must be well-maintained just like any other 
facet of law enforcement or emergency preparedness. The most important 
piece of equipment is the dog itself; it must be bred to have the 
propensity to successfully perform and have a long service life as a 
detector dog. The quality of the training of the dog and its human 
handler are critical to the team's performance. Finally, upkeep of the 
dog's health and fitness and on-going training of the team are 
necessary to maintain its performance over time.
    Providing competent canine detection resources for public service--
first responder organizations in smaller and rural areas is often 
overlooked in discussions regarding the status of the detector dog 
industry. I appreciate the opportunity this hearing provides to discuss 
our programs mission and activities, the status of the canine detection 
industry, and especially the canine detection resources for smaller and 
rural communities.
    We believe the Federal Government will be essential to increasing 
detector dog resources for local, rural jurisdictions in at least four 
ways. First, the Government should encourage the development and 
promulgation of minimum standards for the provision of detector dog 
services. Second, and most obviously, the Government should develop 
funding mechanisms to assist local, rural jurisdictions in obtaining 
detector dog resources. Third, the Government should encourage the 
development of domestic sources of high-quality candidate detector 
dogs. Finally, we believe that the Government should encourage 
programmatic research & development efforts to enhance the performance 
and utility of the use of dogs for detection of hazardous materials.
    Eight years ago, Auburn created the Canine Detection Training 
Center to transfer technology and provide formal instruction on the 
lessons learned through our research. The center's mission is to 
provide instruction of these principles in all facets of canine 
detection to include program management. Another goal of the Training 
Center was to provide a resource for the quality of dogs and level of 
instruction afforded to larger Federal Government and the U.S. Military 
canine programs to State and local law enforcement agencies. We also 
believe the approach must include selective breeding to ensure detector 
dogs have the proper genetics to excel in performance of their duties 
and identified bloodlines to ensure an adequate and readily available 
source of such dogs. Importantly, breeding alone is not sufficient to 
realize the potential of such dogs and we are engaged in efforts to 
engineer the early experiences of puppies such that we maximize such 
potential.
    The industry as a whole is still primarily procuring dogs from 
European vendors. This tradition stems from a culture of breeding and 
raising dogs for working dog tasks as being an enthusiast or sporting-
type hobby in central European countries. Some of these enthusiasts 
turned their hobby into a business by becoming vendors of such dogs for 
sale to military, government, law enforcement, and private security 
entities in the United States and elsewhere. It is clearly the case 
that since the events of 9/11, the worldwide market for these dogs has 
increased resulting in a diminution of the average quality of dogs 
imported into the United States. The dogs must meet certain medical 
criteria and performance standards but this does not ensure the dogs 
have had critical environmental exposures and proper preparation.
    There are always the exceptional dogs out there, but we need to 
have consistent, reliable source of good dogs. Vendors typically know 
the procurement/selection test on which the dogs will be assessed and 
train the dog to meet this standard. Upon entering training a good 
portion of these dogs exhibit behavioral issues causing the dog to fail 
initial training and/or complete training with substandard results. 
Often overlooked, but very critical to this process is the proper 
raising of the puppy so it may express the genetics it received through 
selective breeding. This is overlooked because of the costly time and 
money involved in preparation of the puppy to become a good detector 
dog.
    Auburn, in collaboration with Corrections Corporation of America, 
has significantly reduced the cost of this process through preparation 
of the puppies within prisons. The key to the success of this program 
has been educating inmates in development of these puppies: The 
commitment of the prison administration to the education of the inmates 
and professional management of such programs are essential to its 
success. Auburn's original plan was to use local volunteers by placing 
a puppy in their home for 1 year. The training plan was structured to 
ensure various environmental exposures and enhance performance. 
Although the volunteers' contributions were admirable, they just didn't 
have the necessary time from day-to-day to fully implement the training 
plan. This resulted in only 25 percent of the puppies being 
successfully trained as detector dogs. However, the initial results of 
our prison program are that 85 percent of puppies have successfully 
entered and completed training. We strongly recommend that the 
development of domestic programs for selectively breeding and the 
engineered raising of detector dogs be supported to prepare detector 
dogs for Federal, State and local law enforcement as well as our 
military.
    The United States has the potential for self-sufficiency with 
regard to detection and other needed working dogs. We have an often 
overlooked existing source of very sound breeding stock, the American 
field and hunt trial sporting-dog enthusiast industry, and we now have 
a proven mechanism for raising dogs to be detector dogs, the well-
trained inmate volunteer. It should be noted that our prison program 
can be scaled up to practically any level of production and replicated 
across the Nation at a very favorable cost-to-production ratio: We 
could double the production of the current Auburn program with addition 
of only one employee due to the support provided by the prison. With 
seed funding to initiate growth of such detector dog production efforts 
and an emphasis on Federal Agencies and our military procuring dogs 
from such programs, a reliable self-sufficient resource of dogs well-
prepared to enter and succeed in training could be created. The 
attendant benefit of such a system would be a more readily available 
source of high-quality dogs for first-responder organizations in 
smaller and rural communities.
    Although, the quality and preparedness of the dog is critical, 
there is a tendency for discussions regarding canine detection to focus 
only on the dog whereas the actual detection capability is as much or 
more a consequence of the preparedness of the handlers of those dogs. 
Perhaps the most overarching goal of Auburn's Canine program is to 
advance the practice of canine detection from the level of a craft to a 
more mature technology. Albeit there will always be a strong element of 
craftsmanship involved in training and handling detector dogs, the fact 
that the detector dog is the most capable tool available for the 
important job of hazardous substance detection demands that we aspire 
for a more sophisticated technological approach.
    There are two fundamental reasons for moving toward a more 
technological approach to the training and handling of detector dogs, 
reliability and accountability. The most significant problems in 
relation to homeland security presented by the current state of the 
canine detection industry is variability in the reliability with which 
it is practiced and absence of a mechanism for homeland security 
officials to assess, or account for, such variability. Put in the 
perspective of the ``First Responder'' focus of the committee's current 
field hearings: The most likely first detector dog team resource 
attending to a potential threat is from local law enforcement or 
security service provider and there is no current mechanism in place 
for homeland security officials to know very much if anything about the 
reliability of that team meet the challenges presented by different 
levels and types of threats. Taken one step further back in the 
process, there is also no current formal way that a funding agency 
supporting the costs of handler training or purchaser of detector dog 
team services can account for the quality of such training or services.
    The working dog industry has not fully evolved from a craft. This 
includes educating handlers in the basic science principles that 
informs their training and use of their dog and providing them with a 
strong foundation in operational best practices. Handler instruction is 
where the industry is cutting corners in competition with one another 
to reduce cost because it is least amenable to accountability; a 
handler trainee can exit a training a program having been provided a 
very capable dog that provides the appearance of initial competence, 
but without adequate handler instruction, the actual reliability of 
that team 3 months later is highly suspect. This is particularly 
relevant to public service agencies in smaller, rural communities which 
presently do not have the same access to higher-quality detector dog 
team training services.
    The need to move the use of dogs for detection from a craft to more 
of a mature technology has been recently recognized in three important 
ways. Perhaps the most important contribution to this movement has been 
the House Homeland Security Committees' emphasis, led by Congressman 
Rogers, on the importance of canine detection and thus need for 
standards and innovation in its practice and domestic resources for 
quality detector dogs. The industry has taken notice of the committees' 
attention to canine detection, which has buttressed efforts within the 
industry for self-assessment and the promotion of Best Practice 
Guidelines.
    The most significant of these efforts has been the Scientific 
Working Group on Dogs and Orthogonal Detectors Guidelines (SWGDOG). 
This has been a truly seminal event in canine detection which has for 
the first time in my 30-year career brought together a true cross-
section of the industry (e.g., DHS, DoD, State and local law 
enforcement as well as other public service agencies, commercial 
training and security providers, SME's from other nations, and 
academia) to develop consensus-based best practice guidelines for 
detector dogs. Strong debate amongst different factions in SWGDOG is 
the norm but the process is working and is nearly on its original 
schedule. I feel that the emphasis your committee has demonstrated has 
kept a lot of the SWGDOG members motivated to complete the difficult 
tasks of arriving at scientifically valid best practice guidelines.
    The guiding principles of SWGDOG are consistent with the defining 
qualities of a technology and include:
  <bullet> A common technical language, which facilitates and improves 
        accuracy of information transmitted across generations of 
        instructors and handlers.
  <bullet> Establishes basic best practices to guide the industry and 
        provides consumers of detector dog services with basis for 
        assessment of those services.
  <bullet> Facilitates enhancement and new applications for working 
        dogs.
    The third and most recent effort in advancing canine detection as a 
technology has been the efforts of the DHS Office of Bombing Prevention 
(OBP) to develop a canine detection capabilities assessment tool, 
initiate a trial run at conducting such assessments across several 
metropolitan areas, and initiate the development of a model canine 
handler curriculum designed to meet DHS instructional guidelines. Oak-
Ridge National Laboratory (ORNL) has executed the first segment of work 
for the OBP for which Auburn has served as an SME sub-contractor. 
Conducting a national canine detection capabilities assessment will 
provide DHS with a resource-typed database critical to ensuring that 
the appropriate level of capabilities are deployed in response to 
particular threat situations. Such a tool will also provide a mechanism 
for determining the allocation of resources to improve canine detection 
capabilities in particular areas of the country. Finally, the 
development of a DHS standard handler curriculum will provide a 
replicable model that will promote greater consistency and quality 
control of handler instruction. ORNL is exploring the conversion of 
some of the didactic portions of such a curriculum to web-based 
instruction, which will serve to reduce the duration that a handler 
candidate must be away from his or her agency for training, which may 
be critical for smaller organizations to access such services.
    We believe that the ideal utilization of Auburn's unique program is 
to conduct systematic R&D resulting in enhanced or new operational 
capabilities while providing a resource for exceptionally well-prepared 
potential detector dogs and filling a gap for advanced detector dog and 
handler team instruction for national, State and local public service 
organizations without an inherent training program.
    We hope that we can work with your committee and DHS officials to 
overcome barriers to smaller and rural communities' access to high-
quality detector dog resources. State and local law enforcement 
typically do not have the financial resources and/or the administrative 
support to attend our 6-week drug or 10-week explosive detector dog 
team course. There have been a few exceptions to this: I believe two 
smaller communities have found ways to use DHS-provided grant funding 
to attend our course and we have provided significantly subsidized 
services to law enforcement in our local area and, to a lesser extent 
other departments across Alabama. I have been impressed with the 
efforts of some communities to obtain our services, such as Lee County, 
which split the cost between Sheriff Jay Jones Office and the School 
Board, Cullman County, which engaged in a fundraising campaign led by a 
distinguished veterinarian in the area, or Heflin, AL where the city 
traded us a vehicle, confiscated in a drug arrest executed with a dog 
we previously trained for them, for a new trained dog.
    However, faced with the dilemma of either replacing an unreliable 
emergency vehicle with 200,000+ miles of service or obtaining a high-
quality detector dog and team training, the choice for any police chief 
or sheriff is appropriately to take care of the most fundamental needs 
first (i.e., replacing the vehicle). This leaves the enterprising 
public service official seeking a working dog and training for the 
least possible cost and herein we find the dilemma of extreme 
variability in the reliability with which canine detection is 
practiced. The canine detection industry is replete with vendors of 
highly variable quality dogs and, as short as 1 week, training courses 
offering services in such circumstances. Some of these vendors are just 
uninformed but many are professionals who do know better but target 
this niche market. Many public service officials in the position of 
deciding on the acquisition of a canine are not well-informed because 
this is not something covered in most law enforcement academies (the 
information emanates mostly from prior military or Federal agency 
working dog service) and there is no accountability of DHS-promulgated 
standards, such as, for example that which exist through resource-
typing of equipment with which most public services officials are now 
aware, for canine detection. The committee's attention to this issue 
and attendant efforts such that of SWGDOG hold promise for providing 
the needed framework for establishing minimum training and 
certification standards. Therefore, Auburn strongly recommends that the 
committee consider mechanisms for smaller and rural communities to 
obtain canine detection resources but in a way that helps ensure those 
resources are competent, which is particularly important in this market 
because there are often no readily available internal or external 
sources of such information or control regarding such competence.
    Returning to the topic of Auburn canine detection R&D efforts, it 
seems we are continually scratching the surface on ways to enhance 
canine detection through sporadic, non-systematic development projects 
in which we produce a few dogs for a special application; examples 
include, off-lead remote detection of IEDs to increase the safety and 
security of the war fighter and first responder, Vapor-Wake Detection, 
which is the detection of hand-carried or body-worn explosives, wide-
area autonomous screening for explosive caches (WAX), and canine 
physical conditioning programs to enhance overall performance. All of 
these projects were either examined by independent researchers or 
tested operationally and assessed as being very successful. Increasing 
the capabilities of the detector dog team through development of such 
technologies is particularly relevant to supporting first responders in 
rural and smaller communities because it serves to extend the 
versatility of applications and area one detector dog team can cover. 
However, longer-term programmatic support of such projects, analogous 
to the long-range programmatic efforts to develop detection 
instrumentation, is needed to fully advance these technologies.
    Two examples illustrate well the potential of enhanced canine 
detection applications and how they could serve to extend or be a 
force-multiplier for first responders in rural and smaller communities. 
The vapor-wake detection (or person-screening) of hand-carried and 
body-worn explosives development project was actually suggested by the 
former Chief of the MARTA Police, who was concerned about the transit 
system being a vector for the entry of explosive devices into high-
profile venues in Atlanta. We researched existing information on the 
plume of heat and air emanating from static and moving people from work 
related to the development of the electronic explosive detection 
sampling portals. We used this information to tailor a prototype 
training program for dogs to interrogate this vapor-wake emanating from 
persons. DHS S&T somehow learned of our work with MARTA and requested 
to examine its effectiveness as part of larger rapid transit security 
technology review. That review, conducted by Sandia National Labs, 
assessed the vapor-wake detector dog capability as being capable of 
very effectively screening over 1,000 rapid transit patrons an hour 
passing through a chokepoint with practically no affect of the 
screening on through-put in the transit system. We have had further 
interest from large metropolitan law enforcement agencies for obtaining 
vapor-wake detector dog team training and Amtrak is in the process of 
obtaining such training for several of their detector dog teams from 
us. There is certainly more to be learned that would support and 
advance the use of dogs for vapor-wake detection and such information 
would undoubtedly inform and support the use of electronic chemical 
detection systems for stand-off detection, but yet, we there has been 
no interest expressed in a systematic program of research and 
development of this topic.
    In another program, Auburn teamed with the Potomac Institute for 
Policy Studies (PIPS) to develop an off-lead, remotely commanded, IED 
detection canine capability for the U.S. Marine Corps Infantry through 
the Marine Corps Warfighting Laboratory (MCWL). We assessed the 
necessary requirements and demands of such dog to support Marine Corps 
Infantry without presenting any but the most minimal additional 
operational burden and no reduction in the combat capability of the 
combat infantry squad. This actually did begin as very much a 
systematic development project, but based on the assessed capability of 
the prototype dog, the Marine Corps requested that Marine Infantrymen 
be trained ASAP to operate these dogs and for them to be deployed to 
Iraq. The development of this capability, designated as the Improvised 
Device Detection (IDD) Dog, utilized the full complement of Auburn 
University resources to include our College of Veterinary Medicine, 
Sports Medicine Center, which developed a nutrition and conditioning 
program that made the dogs capable of working in the extreme conditions 
hour-for-hour with the Marine Combat Squadrons with which they were 
deployed.
    This program is an example, as is very often the case, of the 
development of a technology for military purposes that has direct and 
immediate application in homeland security: In this case, providing the 
first responder with a means for stand-off detection of explosives 
through use of a remotely controlled dog. First responders and the 
Marine Corps Infantry share the need of two critical characteristics of 
the IDD canine capability: Stand-off, remotely guided detection to 
increase the distance, and thus safety, between the first responder and 
public from a potential threat; and rapid screening of relatively large 
areas.
    In closing, I would again like to commend the committee on the 
attention it has given canine detection. I can report that such 
attention has already had very positive effects in the canine detection 
field. I believe it is very worthy of the attention of Congress and 
support this contention with the fact that the numerous scientists and 
engineers involved in the development of detection technology I have 
encountered over the years, without exception, acknowledged that the 
well-trained dog and handler team is by far the ``gold standard'' of 
capability by which all other detection technology is judged. We are 
honored by you visiting our facility and I am very grateful for the 
privilege of testifying before you today. I would be pleased to answer 
any questions you may have of me.

    Mr. Carney. Thank you, Mr. Pearce.
    Now I will ask Mr. Knight to summarize his statement for 5 
minutes.

    STATEMENT OF MATTHEW C. KNIGHT, VICE PRESIDENT, ALABAMA 
                  ASSOCIATION OF RESCUE SQUADS

    Mr. Knight. Chairman Carney, Congressman Rogers, thank you 
for this opportunity to represent the association today for 
first responder training.
    As a current instructor and volunteer member, I have 
experienced many first responders receiving training from 
various agencies through the support that Homeland Security has 
provided. This continued support will only make more 
educational opportunities available to the first responders 
across Alabama as well as this great Nation.
    To validate part of the training, the Alabama Association 
of Rescue Squads has partnered with the Alabama Fire College to 
offer certain courses that were not available previously to any 
of the volunteers in our association. These courses have 
objectives and outcomes that really hold the quality and the 
integrity of the courses to quality standards. With this 
partnership and availability of funding, this would allow our 
instructors to travel across the State to other regions and to 
other areas to provide this training to our members.
    The funding from previous years has provided excellent 
opportunities for those who have received the training at this 
great facility. However, there are many more wanting and 
seeking that desire to receive this training. I, being one of 
those. I have not had the opportunity, with a recent career 
change, to get this training available here.
    Communications are so critical during any disaster. With 
Federal funding and/or grants that have been provided, it has 
allowed the bridge and the backbone foundation to be laid. With 
this continued funding now we can look at the interoperability 
among State, regional and local entities.
    However, I must point out that unlike the fire departments, 
the rescue squads, in their mission of first responder duties, 
have missed out on much of the available grants provided. So I 
must ask to please consider allowing rescue squads to submit 
applications for grants to carry out their missions. These 
individuals go above and beyond their call to duty to aid in 
any endeavor only to be denied the proper equipment to function 
at times.
    Once again, thank you for allowing me this opportunity to 
represent the association and I look forward to answering any 
questions that you might have.
    [The statement of Mr. Knight follows:]
                Prepared Statement of Matthew C. Knight
                             July 22, 2008
    Mr. Chairman and Members of the committee, thank you for your time 
and the opportunity to appear before you to represent the Association 
for first responder training.
    As a current instructor and volunteer member I have experienced 
many first responders receiving training from various agencies through 
the support that Homeland Security has provided. This continued support 
will only make more educational opportunities available to the various 
first responders across Alabama as well as the Nation.
    To validate part of the training, the Alabama Assoc. of Rescue 
Squads has partnered with the Alabama Fire College to offer certain 
courses that were not available previously to many of the volunteers in 
our association. These courses have objectives and outcomes that really 
hold the quality and integrity of the course to quality standards. With 
this partnership and availability of funding this would allow 
instructors to travel to the various regions across the State and allow 
hundreds of our members receive the desired training.
    The funding from previous years has provided excellent 
opportunities for those who have received training at this great 
facility. However there are many more wanting and seeking that desire 
to receive the training this facility provides. I being one of those, 
the most recent career change has not allowed me to participate in the 
various offerings.
    Communications is so critical during any disaster. With Federal 
funding and/or grants that has been provided it has allowed for the 
bridge and backbone foundation to be laid. With the continued funding 
now we can look at interoperability among State, regional, and local 
entities.
    However I must point out that unlike the fire departments, the 
rescue squads in their mission of first responder duties have missed 
out on much of the available grants provided. So I must ask to please 
consider allowing rescue squads to submit applications for grants to 
carry out their missions.
    These individuals go above and beyond the call of duty to aid in 
any endeavor only to be denied the proper equipment to function at 
times.
    Once again thank you for allowing me this opportunity to represent 
the Association on this important hearing. I will be glad to answer any 
questions you might have.

    Mr. Carney. Thank you, Mr. Knight.
    I thank all of you for your testimony. Mr. Rogers and I 
will now have 5 minutes each to question the panel. I imagine 
we will have several rounds back and forth here. One of the 
privileges of being Chairman, I get to go first.
    [Laughter.]
    Mr. Carney. So I recognize myself for 5 minutes.
    I will start with Mr. Schrader. In your written testimony 
you point out that 90 percent of law enforcement agencies 
across the country have 50 officers or less--90 percent is a 
large number, obviously. I think that shows just how important 
it is to train responders from small communities, and despite 
that fact, from fiscal year 2001 to fiscal year 2007, the 
percentage of rural responders being trained by CDP has 
gradually decreased, from nearly 63 percent in 2001 to 38 
percent in 2007.
    What can be done by FEMA, by local communities and the 
Congress to make sure that trend is reversed?
    Mr. Schrader. Well, actually we have a very aggressive 
program for pushing mobile training out into the field. Last 
year, for example, we had 37,000 course completions that were 
done throughout the country in the 20 different courses that we 
offered. As of July 19 of this year, those same 20 courses, we 
had 1,600 offerings in 38 States and 45,000 course completions. 
So the vast majority of the offerings that we have are being 
pushed out into the country. There is a lot of value to that 
because what it does is it not only reaches people who might 
not otherwise have the opportunity to be exposed to this kind 
of training, but it also makes them aware of what else is 
available back here at the CDP for future training 
opportunities.
    Mr. Carney. Have you been able to discuss the efficacy of 
those programs you send out?
    Mr. Schrader. We use--there is a technique called the 
Kirkpatrick Method and we do follow up with the actual 
employers and the technique there is to make sure that there is 
a perceived improvement in performance by the responder, by the 
actual supervisor. So we do that kind of follow-up assessment, 
yes.
    Mr. Carney. This is for you, Mr. Schrader, but Mr. Walker, 
you may want to jump in.
    The grants program directly provides funding for States to 
enhance the capabilities of the local first responders. I 
understand the directorate is currently trying to improve the 
ability to measure the effectiveness of those grants. What 
steps are being taken to address the directorate's ability?
    Mr. Schrader. Well, I think in the wisdom of the Post-
Katrina Act, one of the things that we have done inside FEMA is 
we have actually broken out the National Preparedness 
Directorate as a separate focused activity from the Grants 
Directorate so that the mechanics of putting the grants out and 
the grants guidance is run by Assistant Administrator Ross 
Ashley. I handle the preparedness cycle which is planning, 
training, exercising and assessing. That allows us on a 
continuous basis to be focused on that.
    We have actually done two real important things that the 
law required. One is that we are putting more resources into 
the regions. We really believe that decentralization and 
putting more authority to the States in coordination with our 
regions is the best way to go over the long haul. Public safety 
and public health is fundamentally a State and local 
responsibility and they put tremendous resources into it. There 
was a recent CRS study that showed the vast quantities, in the 
billions of dollars, that are invested by State and local 
governments.
    So our role is to empower the States through the regions 
and put those resources out in the regions. We now have in 
every region a Federal preparedness coordinator. We have added 
additional resources for planning and assessment in the 
regions. So our focus at the headquarters is to, again, 
decentralize.
    We have also organized a group that is focused on 
assessments. They are collecting data from the field as well as 
from the program areas to make sure that we are getting value 
with all the dollars.
    So there is a lot more work that has got to be done in this 
assessment area, as far as I am concerned, and we have got a 
focus on it daily.
    Mr. Carney. Director Walker, should States be involved with 
this process and the accountability structure?
    Mr. Walker. Yes, sir. I think if you ask any State director 
in the country how he feels about the administration of 
homeland security grants, he really wants two things. He wants 
predictability and he wants flexibility. You cannot run a 
business, you cannot run an organization unless you can have 
some level of predictability on what your resources are going 
to be for the next year or the year after. It is difficult to 
start a program, like interoperable communications, and try to 
build a State plan--if it is a 5-year plan, there has got to be 
some predictability you are going to be able to fund it at the 
end of the 5 years. We have got to also keep faith with our 
counties and our locals. When you consider that folks in 
Washington realize that you cannot secure this country from 
inside the beltway, you have got to have 50 State programs that 
are part and parcel working together. It is the same here in 
Alabama. I cannot sit in Montgomery and manage 67 counties, we 
have got to invest in each of our 67 counties and you have got 
to have predictability to do that.
    Then the flexibility. The flexibility to take these dollars 
and put them where we, the State and local officials, feel like 
it is the most necessary. I mean with all due respect to my 
friend, he does not really know exactly what we need in Alabama 
as well as we do. So we think if we have the flexibility to 
spend the money the way that we see fit, build the capability 
that we want, conduct the training and the exercises, then it 
would be a much better use of the dollars.
    Mr. Carney. Thank you. My time has expired for this first 
turn and I will now recognize Mr. Rogers for 5 minutes.
    Mr. Rogers. Thank you, Mr. Chairman.
    I want to follow up, Mr. Schrader, on what you referred to 
as mobile training. My understanding is that the residents here 
in the departments, whether it is fire or police department or 
rescue department, can participate here for 2 weeks, cost-free, 
with room and board, in this excellent training. That is the 
feedback that I have gotten over the years is the people that 
come to this facility from across the world are very impressed 
with the training they receive.
    In touring yesterday, I really was probing about the mobile 
training that you referenced. I understand that you have had 
some success with that. Yet my understanding in asking 
questions about the mobile training is that it is also a 3-day 
training program, even though it is sent out to the community. 
It is generally participated in by departments that just cannot 
turn loose folks to come up here for 2 weeks.
    I am still trying to figure out how we can reach these kind 
of folks that are working, as the Chairman referenced, in 90 
percent of the first responder positions in the country, they 
are volunteers, they work during the day and could not 
participate in a 3-day program if it was during the day time. I 
know that there was some reference made--I think your phrase 
was indirect training, train the trainer.
    I would like to discuss--and I am not being critical when I 
say this--when I asked yesterday during our tour of CDP about 
this train the trainer, I was told that the trainer received 12 
hours of training. They then went out and delivered 6 hours of 
training to the first responders. I really would like to find a 
way that we could get a professional, of the quality that we 
saw in the facility, who is going out to do the training. So 
that if one of my friends from Clay County started asking some 
probing questions beyond the scope of that person's 12 hours of 
training that the trainer had received, that they would find it 
of benefit.
    How difficult would it be, or manageable, for you to put 
together a program of outreach that went out in these 
communities that had the kind of professional that we are 
talking about?
    Mr. Schrader. Well, let me start by addressing the mobile 
training program, because I obviously have the same interest as 
you do and the questions are spot on. If you examine the mobile 
training program, for example, we have about 260 folks here at 
the CDP to support all the training efforts. Of those 260, 
about 58 are the instructors on this site and then the balance 
provide all the support for all the training efforts.
    The way we deliver the mobile training is that there is a 
national contract outreach through the contract that we have 
here at CDP and they go around the country and find 
professionals. There are probably around 360, plus or minus, 
professionals who deliver the mobile training around the 
country. Of those folks, 50 percent of them are still active in 
their communities. They make some of the best trainers because 
they are in the business. The other 50 percent are within 3 to 
5 years of having retired from the field and, therefore, they 
are still reasonably current in their profession. So when you 
think about these 360 people that are deployed all over the 
country, that is the way to do it. By using the contract 
vehicle, they are able to recruit nationally and they go into 
these local jurisdictions. We are finding with some of our 
other training partners, they use the same strategy. Nothing 
substitutes for having a first responder, from a credibility 
perspective, a first responder delivering training to another 
first responder.
    Now what I want to make sure we do with the indirect train 
the trainer program is to make sure that the people that we are 
training are in a position to make a commitment to do the 
follow-up training. That is always an issue. We ask for a 
commitment for folks who take that training to be willing to 
follow up, and we actually collect data on how many training 
hours they have delivered to various individuals.
    Mr. Rogers. Have you ever entered into a relationship with 
a university or community college so that the people that are 
trainers, that go out, these professionals who do it on a 
regular basis? Again, I am concerned about somebody who just 
received 12 hours of training going out and being the only 
source of information. It would be great if it was a 
professional, who has that as their job to go out and regularly 
deliver that training.
    Mr. Schrader. Well, let me give you one other point of 
view. The folks that we train, for example, if you are getting 
a haz-mat course here, the people who are being trained are 
haz-mat technicians. So they are not folks who are not familiar 
with the business. We are not taking people off the street who 
have no background. So the expectation is that we are raising 
their level, just like in the military, where you train--that 
is a pretty typical, you know, you train the trainer and it is 
the squad leader's job to train the rest of the squad.
    So we believe that that approach has value. I would not 
want to move away too far from that approach. But working with 
universities is also very valuable. We have these various 
consortia, but even a consortia, one of our consortium 
partners, for example, trains many people out in the western 
part of the country and they use the same strategy of bringing 
in--almost all of their trainers are first responders from 
around the country that they bring out on a regular basis.
    Mr. Rogers. I see my time is up. I will pick this back up 
in the next round of questions.
    Mr. Schrader. Sure.
    Mr. Carney. Thank you, Mr. Rogers.
    Director Walker, once again, as you know, the Department of 
Homeland Security determines how security dollars are going to 
be distributed. What do you think they ought to take into 
account?
    Mr. Walker. In my written statement, Mr. Chairman, I--you 
know, the fact is, and it is risk-based, but the 50 largest 
cities in this country receive more Homeland Security grant 
dollars than all the rural areas and the rest of the country 
combined. I understand the risk component, but the practical 
component is that the larger cities and urban areas have got a 
greater ability to raise revenue to outfit and sustain and 
train their first responders. Rural communities do not 
necessarily have that advantage. It is difficult in some rural 
communities to get county commissions and local government just 
to fund the match on emergency management performance grants 
required to keep a full time EMA person in a local county.
    When we started about 5\1/2\ years ago, we still had some 
counties in Alabama where the emergency management function was 
a part-time duty and somebody worked out of their kitchen. Now 
in a post-9/11 world, we can obviously do better than that, 
whether it is in Alabama or anywhere else in the country.
    So we set out to try to improve communications. We used 
Homeland Security grant money, for example, to create a cache 
of capabilities that we believe every county in the 21st 
century ought to have. We set about funding that. But the issue 
is that it is very, very difficult for local communities who 
have got to stretch revenue dollars a long way to make the kind 
of investments, not just to pay their police force, or if they 
have a paid fire or emergency management director, that is just 
to keep them on the staff. I mean we have got to continue to 
invest to get them the kind of capabilities because if you look 
at terrorism, for example. We have already talked about some of 
the natural disasters that routinely plague rural America, but 
the terrorism aspect. I mean here in Alabama, the D.C. snipers 
murdered before they went and wreaked havoc in the national 
capitol region. Two of the 9/11 hijackers were stopped in rural 
Marion County, Alabama before they went and perpetrated their 
acts against the World Trade Center. Then finally, you know, 
hate groups in this country, domestic hate groups, continue to 
flourish. Here just recently, we destroyed hundreds of 
improvised explosive devices, thousands of rounds of ammunition 
and machine guns that were captured in rural counties in 
Alabama by hate groups that were set on doing damage. Those 
folks are in jail now, but that has all happened here recently.
    So in a 21st century world, you have got to get the right 
kind of capabilities into the hands of law enforcement and 
first responders to deal with challenges in rural America. 
Rural America is relevant and so we have got to look and see if 
the formula, although risk-based, is practical based on the 
requirements of the country.
    Mr. Carney. Mr. Schrader.
    Mr. Schrader. Well, having sat in Mr. Walker's chair, I 
think he did not say anything that I would disagree with. I had 
many of the same experiences and actually had my own list. When 
you are in these jobs as State director sitting right next to 
the Governor, those are tough jobs and you need to have the 
entire State mobilized. I know we had money that we distributed 
through grants that created a skeletal network of operations 
around our State when I was in Maryland. We used the Homeland 
Security grant money and we were very careful to distribute it 
to not only just the urban areas, but to make sure that it was 
put out in every jurisdiction. Because you never quite know 
where people are going to show up. We used to get regular FBI 
briefings, we knew that folks would be, you know, trying to lay 
low somewhere else in the State, they did not want to be 
obvious. So I think Mr. Walker is right on target.
    I think, again, the safety and security of this country 
really rests very heavily on folks like Mr. Walker and his 
peers around the country as well as the emergency directors. 
Some are one and the same and others are divided, depending how 
each State is organized. But I think those roles are critical.
    Mr. Carney. Are you satisfied that FEMA is sensitive to 
that in terms of distributing the grant money?
    Mr. Schrader. Yes, absolutely. I sat with Ross Ashley, who 
has had quite a bit of experience in this area. Obviously the 
focus, you know, is very clear, that risk is where we need to 
put the emphasis and Secretary Chertoff, over the last couple 
of years, has been very focused on making sure that you can 
explain the formulas. I do not want to get too far afield here, 
but the bottom line is that we are focused on risk but there is 
a balance there. We have got to make sure that we have 
capabilities across the board.
    Mr. Carney. Thank you.
    Mr. Rogers.
    Mr. Rogers. Thank you.
    I want to pick back up on the rural training. One of the 
primary reasons why I sought this position on Homeland Security 
and am so involved in it is that my district is rural and poor, 
and I want to make sure that we get the same quality of 
attention and education as other cities. There has been a tug 
of war on the committee trying to allocate resources. My 
colleagues from the more urban areas, like New York, Chicago, 
San Francisco, they obviously think they are bigger risks. But 
we have already talked about the fact that 90 percent of the 
first responders in this country are rural and they come from 
small departments most of which in my view are volunteers. So I 
want to make sure that they are not given second-class status.
    That goes for training, so I want to come back to this 
training issue. I understand you came back and revisited the 
mobile training, but I want to talk more about the indirect 
training, which seems to be the viable option for rural 
departments.
    Mr. Schrader. Uh-huh.
    Mr. Rogers. In talking with your staff yesterday, or CDP 
staff yesterday when we toured, I was told that there is not a 
lot of participation in indirect training and primarily because 
it is not being requested by the State Department of Homeland 
Security. That under our new structure, and I was on the 
committee when we put it together, it has to go through the 
State homeland security office to get resources.
    I would like to ask Mr. Walker, are we doing enough to 
raise awareness for these volunteer departments to ask you or 
do we need to ask? How do we need to make sure emphasis is put 
on that training resource that the folks at CDP will ramp up 
their resources to provide professionals to go out and deliver 
this training in the rural areas?
    Mr. Walker. I think the mobile team concept is incredibly 
valuable.
    Mr. Rogers. As opposed to indirect? It's 3 days training 
and a lot of these volunteers will never be able to do that.
    Mr. Walker. What I am thinking about, Mr. Rogers, as you 
know, volunteers are incredibly important and valuable. There 
is training that they obviously receive outside of the CDP 
channel. You know, there is another grant that you all 
administer called Citizen Corps grant that kind of gets cut one 
year and not cut the next year. But we take those small 
dollars, for example, and we invest. We have State trainers. It 
is not high level training, but for me, it is a low-cost, high-
yield program. You take these handful of dollars, we have 
trainers at the State level that receive training, they go into 
every county with the Citizen Corps Council, and we train our 
locals who then go out in the community. Because what you find 
in rural America, as you know, is that there is a lot of pride 
and self-sufficiency, self-reliance in rural America. They will 
not call Government.
    But that does not take away our obligation to try to get 
equipment out there, to try to train volunteers. Because 
oftentimes, it is neighbors and volunteers and others that will 
come and help you in a disaster as opposed to somebody paid. As 
you know, in some of your districts, there is not a single paid 
fire department in the entire county. There will be 16, 17, 18 
volunteer fire departments and there is an obligation to train 
them.
    My friend on the end, who talked about rescue squads not 
receiving some of the grant money. I talked to Dennis about 
this. You know, you cannot give Homeland Security grant money 
to an entity that is for-profit. In other words, if they make 
money off of their rescue service, you cannot issue them 
Federal grant money, which poses a problem for them trying to 
service a rural community.
    Training comes at you a lot of different ways. The 
opportunities are there. I think a lot of our rural folks just 
do not have the ability to take advantage of it because, as you 
know, they cannot leave their day jobs to go to training for 
something that they are a volunteer for or if they are in a 
paid position, they are only one deep and the city cannot do 
without a police chief or a deputy.
    Mr. Rogers. Dr. Meehan, you are the President of a 
University that is primarily first-generation students.
    Mr. Meehan. Yes, sir.
    Mr. Rogers. A lot of the challenges we are talking about 
here: You and I talked last night about what I am trying to 
achieve with this push in the rural communities. How do you 
think we can achieve this goal to meet the needs of these 
volunteers?
    Mr. Meehan. I think what Deputy Schrader and what Director 
Walker talked about, we have to do it in a variety of ways. You 
need to do it in a train the trainer model, the mobile unit and 
we need to do it with universities that can train the new 
career professionals. That is where our expertise is, training 
new career professionals on site. That is where we found our 
niche and have done very well with that. All those can be 
expanded into the rural area. I see that as a terrorist threat. 
You mentioned last night the possibility of a terrorist who 
could target a variety of rural areas through WalMarts, for 
example. That would be devastating to this Nation's economy.
    Mr. Rogers. That is the thing I share with our audience, my 
concern that the country is not just vulnerable in New York 
City. You know, if terrorists really want to show how 
vulnerable we are, you go into small town America and on the 
same day have several attacks that occur simultaneously. We 
have got to be prepared to deal with that.
    Mr. Knight, my time is almost up but I wanted to ask you, 
to get at the subject of training. Your members who 
participate, what is the most viable way for them to receive 
training? What kind of increments of time could they allocate?
    Mr. Knight. You know, they work 40, 60, 80 hours a week in 
general, a lot of weekends, which is out of the norm.
    Mr. Rogers. So if CDP were going to come out and provide 
training to your volunteers, how much time in a block of time 
could they provide--could they meet a 3-hour block of time or a 
6-hour?
    Mr. Knight. Three hours, 3 or 4 hours.
    Mr. Rogers. Okay. I want to go back to the mobile unit. Is 
there any way that you can imagine that we could structure the 
mobile training so that we could cluster counties, like, for 
example, take Clay, Randolph, and Cleburne Counties, which are 
contiguous geographically, and have those units be available 
for this training and have the mobile unit come out since it is 
a 3-day training period, and do it twice a week in 3-hour 
increments for about 6 weeks to get it done?
    Mr. Schrader. Right, Congressman. I would agree that that 
is an option. We are actually looking for innovative methods. 
We are working in Iowa now, for example, right now, a multi-
county regional approach to mobile training. So those are the 
kind of innovations that I think we are going to have to use. 
Because if you get multiple counties working together, they can 
back each other up. So those are the kind of techniques I think 
that are possible. We are testing some of those innovative 
ideas as we speak.
    Mr. Rogers. What will Mr. Walker have to request, for us to 
be in a position to give him what he needs?
    Mr. Schrader. For that kind of----
    Mr. Rogers. That kind of training out in the rural 
communities.
    Mr. Schrader. Well, what we are pushing is the FEMA 
regions, we have a Federal preparedness coordinator in each 
region now. Mr. Vaughan is the Region IV FPC and he has a 
staff. We have annual training and exercise workshops in every 
region and what we are trying to do is gather information. You 
know, because each region is most familiar with its States. 
Once that request is made, we can begin working on it and we 
are looking for those kind of pilots. So if Mr. Walker had that 
interest, we would jump on it.
    Mr. Walker. I was just thinking, Mr. Rogers, that perhaps 
what we may want to do in Alabama is form like a team of folks 
like Mr. Knight and others to try to develop a module that 
would serve rural communities. Because the CDP is here in 
Alabama, we will be glad to sit down and try to iron something 
out that perhaps would work in rural America and we would be 
glad to test it here in Alabama.
    Mr. Rogers. I yield back.
    Mr. Carney. Dr. Meehan, can you be specific on some of the 
program offerings that you do that really have an application 
to the rural responder?
    Mr. Meehan. They are in homeland security and public 
safety. Dr. Barry Cox is our director of that program and 
initiated that for us and he can speak directly to it more so 
than I could in that regard possibly, on curriculum. But what 
we have done with the on-line programs, training those 911 
operators, has allowed them to move up in their careers in 
those areas of homeland security, public safety and emergency 
management. They are able now to move up to different positions 
that Mr. Walker has, and others. We have enabled them to have 
those career ladders where they would not have had that 
previously.
    Mr. Carney. Do you see the JSU model as something that 
could be transferred across the academic community?
    Mr. Meehan. I do, I do. It is not that difficult to 
implement. The biggest problem we have right now is finding 
professionals to serve as faculty members. Our faculty members 
are the strength of the program. They have had expertise as 
practitioners as well as academicians. They have the theory and 
practical knowledge. That is why we want to pursue a doctoral 
program, because we need more of those and the Nation's 
universities need more of those as well.
    Mr. Carney. Okay, let us shift gears just slightly and talk 
about some of JSU's involvement in developing plans for special 
needs populations. As Director Walker will attest, we have to 
strike a delicate balance between helping those who need the 
most and able bodied citizens who are prepared to help 
themselves. What has JSU done in that regard?
    Mr. Meehan. We helped to coordinate the CSEPP program with 
emergency kits. We are still doing that primarily through the 
awareness program at the incinerator here locally. We have 
worked with both county agencies in Talladega and Calhoun 
Counties, Randolph County, Cherokee County and others to make 
sure the word is out to the public that if an accident 
happened, a plume came up, what they would do, preparing the 
public, getting the information out is the primary way that we 
have done that.
    Mr. Carney. Mr. Walker.
    Mr. Walker. We have partnered with JSU on a couple of 
missions. They have helped build the Government structure that 
we have used to implement our interoperable communications 
system in Alabama by which we can tie all of our first 
responders together. We are still working with JSU and with 
Auburn University in Montgomery now to try to take a look at 
some of the societal models that help us reach a percentage of 
the Alabama population that will more than likely, based on 
some of the models that we've seen, more than likely need the 
Government's assistance. As you know, Mr. Chairman, about 1 
percent of our population make up the first responders and 
about another percentage or percentage and a half makes up the 
volunteer community that comes together and assists in a 
disaster. That leaves really 97 percent of our folks that you 
have either got to be self-sufficient, self-reliant, try to 
take care of yourself and your family for 72 hours, so that 
that 2 or 3 percent can be helping the portion of our 
population which in some estimates could be as many as one in 
five of us that will have a special need where you will need to 
be assisted in a disaster. But we are working with Jacksonville 
State on some of our modeling in helping us determine where our 
most at-risk population is.
    Mr. Carney. Citizen preparedness generally. Not first 
responders generally, but citizen preparedness, generally: Is 
there something in the works there that you are working on?
    Mr. Meehan. There is. For example, identifying, as Mr. 
Walker said, that special needs population. Just this week, I 
received information in my own personal mail if I had special 
needs in my family or if I knew of neighbors that had special 
needs, identifying those. So it is trying to energize and 
inform everyone in the community to be active partners in 
protecting not only themselves but each other as well.
    Mr. Carney. Mr. Pearce, we have not forgotten you. We are 
going to get to you in just a minute.
    Mr. Pearce. That is fine.
    [Laughter.]
    Mr. Carney. Mr. Knight, you spoke about how rescue squads 
are missing out on some grant opportunities. Can you be more 
specific?
    Mr. Knight. You know, a lot of the FEMA grants and 
everything is specifically geared toward fire departments and 
all, and we do have some members of our organization at fire 
departments within their district, you know, and have received 
some of the funding. But as a general rule, rescue squads in 
their goal and mission, the grants fail to recognize them. Like 
Mr. Walker had stated earlier, you know, to a certain degree we 
do charge in some areas for our services that we provide. So we 
are a for-profit business, if you look at that distinction. So 
we miss out on a lot of that. Other agencies get that money and 
we need it.
    Mr. Carney. Mr. Schrader, as long as you are here, any 
suggestion about how we can fix that or alleviate that or 
modify the program so we can help the rescue squads?
    Mr. Schrader. It is not a simple problem and I would not 
want to speculate from the chair here. It is an area of a gap. 
It has been there for awhile and we had it when I was in 
Maryland.
    Mr. Carney. Mr. Walker.
    Mr. Walker. One thing that is interesting about the 
homeland security grants, Mr. Chairman, is that the first 
couple of years, I guess maybe 2003, 2004, 2005, when we pushed 
the money out to our local communities, the emphasis in local 
communities was clearly on equipment, on capabilities. They 
really wanted to get new equipment. We did a reasonable job. 
After about 2 or 3 years into it, we thought, you know, we have 
got a lot of stuff out here, but that stuff does not do you a 
lot of good if we do not have people trained to use that 
equipment. Then as we start to put more of an emphasis on 
training, then we get our folks trained and you said well, it 
is really not going to be that good, you have got the equipment 
and you have got people trained, but in a disaster are they 
able to work with first responders from other jurisdictions and 
engage the local community. So that is really the process. You 
have got to get the right equipment, you have got to get 
individual and collective training so the individuals are 
trained and then your organizations, whether it is fire or 
police training, and then you have got to be able to exercise 
yourself as a fire crew in a broader community in order to 
really do well in a disaster. So it is that model. I have 
seen--a lot of our communities still want equipment, because 
what we find--and when you talked a moment ago about striking 
that balance between funding urban areas and funding rural 
areas, is that equipment will--for lack of a better term, it 
expires or it loses its shelf life, like Level A suits or 
protective masks or whatever, they are only good for--and if 
you do not have the resources to replace the filters or replace 
the suits, then you have lost the capability.
    So that is why we have really seen a push between funding 
States to funding 50 large cities. You have really got to 
manage that closely or a lot of capability that we built in 
Alabama and around the country is going to degrade because they 
do not have the ability to continue to train or to upgrade or 
sustain their equipment.
    Mr. Carney. I might offer one thought. This is an area that 
I have had an active interest in for quite awhile. You were 
trying to build this relationship in your program, but the 
community college network around the country is where--they do 
a tremendous amount of public safety staff training. Just 
recently--I think Mr. Walker mentioned a community preparedness 
program--we just brought the community college association into 
our network of community preparedness. There are many counties 
that share community colleges, but that is a platform for both 
adult learning but also follow up education, certificate kind 
of training that would be a possibility. I think that may be an 
untapped opportunity nationally, is the community colleges.
    Mr. Walker. In Alabama, Mr. Chairman, Governor Riley has 
been incredibly innovative in the use of the community colleges 
in that we use our community colleges in disasters, like a 
major hurricane, as shelters. He just committed to housing 
10,000 evacuees from neighboring States should they be hit, 
with the community colleges, because if you look at a community 
college, they have clinics, dormitories, classrooms, 
cafeterias. So we have, working with FEMA, put huge generators 
at like 19 of our community colleges around the State and we 
are using those to assist us in disasters. We thought that was 
a pretty innovative use of space as opposed to FEMA trailers.
    [Laughter.]
    Mr. Carney. Mr. Rogers.
    Mr. Rogers. Thank you.
    I know I am going to use the wrong phraseology, but talking 
with Mr. Walker yesterday in discussing the needs and the risk 
assessments, the acting director of CDP informed me that there 
is no city in Alabama that meets the risk definition of a city, 
that the nearest one is Atlanta. That was surprising to me, to 
find out that we do not have that urban threat. Do you find 
that affects your ability to get resources to the State?
    Mr. Walker. In the Urban Area Security, 50 largest cities 
in the country, we do not have one in Alabama. What that means, 
Mr. Rogers, is that States will receive Homeland Security 
grants. If you are a State that also has a UASE city, then that 
city also competes for a separate pot of money. The problem----
    Mr. Rogers. Over and above what they would get otherwise.
    Mr. Walker. Over and above what the State would get. The 
problem, just for Alabama's purposes is that we have the 
population density in the Birmingham-Jefferson County 
multiplex, but we do not have the critical infrastructure per 
se. In Mobile, we have the critical infrastructure per se, with 
ports, chemical industry, what-not, but we do not have the 
population base in proximity to a lot of critical 
infrastructure. So every year we get the opportunity to go back 
and fight for one of our cities, but we have not made that list 
of 50 yet.
    Mr. Rogers. Well, my question is: Does it disadvantage you 
in an unreasonable or unfair way, in your opinion?
    Mr. Walker. It does, sir, in that with the amount of 
funding that we get, we could very easily push it into 
Birmingham, Mobile, Montgomery and Huntsville and it would be 
gobbled up. But as you know, and as we hold this hearing today, 
you have got to look at all 67 counties. All 67 counties have 
to be relevant. Every community has a stake, particularly in 
the 21st century. The example that I cited earlier is that they 
have to have the investigative ability, the ability to solve 
crimes, the ability to manage disasters, to be able to surge 
and be self-sufficient. The money is not there to do it all.
    Mr. Rogers. Mr. Schrader, do you have any thoughts on that?
    Mr. Schrader. Well, the issue of the formula has been 
revisited every year. One of the things that the law does 
provide is an appeal process which folks are able to use, as 
Mr. Walker mentioned. But the reality of the situation is that 
there has to be some objective process in place. I know that 
the folks who do those risk formulas spend an awful lot of 
detail time informed by intelligence and others, so you know, 
it would take a lot more time and we would have to have 
different people here to have that conversation today.
    Mr. Rogers. This will be my last question before I shift my 
thoughts to canine training. I would ask Mr. Walker and you if 
you have thought of this. What is the No. 1 take-away that you 
would like for me and the Chairman to leave here with, knowing 
that we can push for a policy change that would help you better 
reach these rural responders with training?
    Mr. Walker. Is that rural communities, sir, are relevant. 
They are relevant in the 21st century, and particularly as you 
look at the dollars. A rural county like yours, they may have 
an operating budget of the entire county of $10 million. A 
disaster can blow through here today, a tornado, and cause a 
million dollars worth of damage. They qualify for public 
assistance, but it is a 15 percent match, that is $150,000 out 
of a road fund or something. So you cannot discount that urban 
areas have the ability to raise revenue to outfit their first 
responders, to train and build capability that rural America 
does not.
    Mr. Rogers. So get rid of the match for local, rural 
communities. Is that in a nutshell what you are advocating?
    Mr. Walker. Well, now we are talking about assistance in a 
disaster and match funds. You know, in my testimony, we had a 
frustrating incident in Alabama a few months ago where we had a 
tornado, a lot of tornadoes that blew through Tennessee and 
Alabama, the same line of storms. Tennessee got declared for 
individual assistance, Alabama did not. Because there is really 
no scale or thermometer that determines who gets individual 
assistance or not. It is not in the law, it is kind of 
subjective. There is a guideline. But we did not qualify. You 
have to understand in a rural community, a tornado that travels 
a quarter of a mile wide for 17 miles and tears up 70, 80 
houses is far more devastating to a rural county than it would 
be going through downtown Atlanta, when you just look at the 
scale and scope of the disaster.
    So I think we have got to look at the thermometer for 
individual assistance and I think that we have to look at the 
formulas for spending more money on 50 big cities than we do 
the rest of the country, when you look at the big cities' 
ability to raise revenue and outfit themselves as opposed to 
what rural America can do.
    Mr. Rogers. Any thoughts, Mr. Schrader?
    Mr. Schrader. Yes, I think the biggest take-away I have had 
from this whole process, and I appreciate the opportunity to 
have some of these conversations over the last 2 days, is that 
we need--we are already focused on the issue of how do we reach 
our rural first responders around the country, but it just 
redoubles my commitment and my team's commitment to stay 
focused on this and to continue digging in and making sure we 
have a better understanding of how to improve it.
    So I appreciate the focus and it is something we have got 
to do. The one thing I will offer, the other thing is I want to 
make sure we do not leave with a misperception, the Center for 
Domestic Preparedness provides advanced training. We are not 
competing with State training academies. That is always an 
issue around the country where every States has very fine 
institutions. It is not the intent of the Center for Domestic 
Preparedness or our other consortia partners to be competing 
with States' basic services. We are targeting folks who already 
have basic training and are looking for the advanced senior 
technician focus and reaching out and reaching those people is 
critical. So that is the major take-away I have had from this 
couple of days.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Carney. Mr. Pearce, it is your turn now. I know that 
scientists are trying to replicate the dog's ability to detect 
all kinds of things, and has fallen short, so far at least. In 
fact, TSA bought a bunch of these explosive trace portals, I 
guess they call them, for airports and different places and the 
machines cost a couple hundred grand each and they have 
encountered significant maintenance problems. Can you comment 
on that? How much does a dog cost when it is trained, how much 
does it cost to train them and how much maintenance problem do 
you have with a dog?
    Mr. Pearce. Well, a fully trained explosive detector dog, 
which would be comparable to--that would come from our 
facility, which would be comparable to a TSA explosive 
detection dog would cost around $14,000. Of course, there is a 
20 percent subsidy that Auburn University provides to local law 
enforcement here in Alabama and a 10 percent subsidy to law 
enforcement as a whole. You are not going to find a better 
piece of technology that is mobile, that can discriminate 
against all the various odors in its environment, and a piece 
of technology that is constantly having to be calibrated.
    One of the unique things in my travels working with the TSA 
program before was, what I noticed is you can get out of the 
vehicle--a police officer can get out of the vehicle with a 
piece of equipment and nobody would ever even notice them. But 
the moment the police officer stepped out of vehicle with a 
canine at his side, everybody took notice. So the deterrence 
level that the canine brings to a police department or an 
aviation security or any environment such as that, is 
intangible.
    Mr. Carney. In terms of maintenance cost, upkeep on a team.
    Mr. Pearce. In terms of maintenance cost, in speaking of 
rural responders, it is going to be costly as far as the 
initial procurement of those teams, it is just a canine in 
training, a well-trained canine, more or less educating the 
handler on the proper techniques of maintaining the dog is 
going to be rather costly up front in the initial $14,000 that 
you are going to spend to get that team, but it is no more 
different than a seasoned police officer that basically get out 
into the law enforcement department and goes to training 
through the academy, learns how to do his job, gets out there 
and gets experience underneath his belt. There is initial cost, 
there is initial investment of time up front, but as the years 
go on and the experience of a well-trained team, there is less 
time involved, less cost involved.
    Mr. Carney. I yield to my friend, Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    I would like to offer a little story to kind of bring up 
why this subject is important to me. A little over a year ago, 
I got an earmark--and I am one of those Congressmen that will 
tell you I am proud of earmarks, I do not ask for anything I am 
not proud of and I went on the front page of the paper when I 
asked for it, I think it is part of my job. But in any event, I 
asked for an earmark and got it for Auburn University for 
genome research in catfish, for the safety issue. Auburn has 
been very involved in this research. Well, as you know, there 
are critics to earmarks in the country and they like to 
ridicule things like studying catfish genomes and such. I had a 
guy from Fox News Channel come and interview me to say isn't it 
a waste of money to study catfish genomes and I said well that 
depends on whether or not you are eating a catfish. That is 
true. We sell millions of pounds of catfish in this country and 
it is a food safety issue, just as tomatoes were a food safety 
issue for us a couple, 3 weeks ago.
    Well, all that is to say that is the same way people view 
canines historically. You know, you talk about the need to 
increase the emphasis on this asset for the security of 
America, from an American security perspective and people do 
not really take it seriously until you start to think about the 
world that we live in post-9/11, and how valuable this asset 
has become and how relatively inexpensive it is and how very 
efficient it is.
    In my trips to Iraq, I found that when you are going in and 
out of the green zone, whether you are going into one of the 
embassies, one of the former palaces of Saddam Hussein, any of 
the ports of entry, when we go into a mess hall, you have got 
canines sweeping everybody, because you never know who is going 
to be carrying a bomb. We have seen with the canines that 
Auburn has trained that are working over there, they sweep 
roads and buildings for the Marines, who have not had a single 
death since those canines have been in the field.
    I regularly go out to Walter Reed and visit wounded troops 
and I can tell you, any one of those troops who lost a limb or 
was seriously maimed because their vehicle was hit by IED, that 
that road could have been swept by a canine right in front of 
them, and they would have been thrilled to have this asset. 
They will tell you it has international security implications 
for them.
    These are very valuable assets. We look at the London 
bombings, the Spain bombings, and we see what happened in our 
country. These assets are needed in our transportation hubs, 
whether it is airport, bus station, train station. We are 
grossly underutilizing this asset. The Secretary of Homeland 
Security Chertoff acknowledged that.
    Now with that backdrop, I want to discuss what Auburn is 
doing. I have found that there is a real gross inadequacy of 
assets in the field, canine assets. But more importantly from 
my perspective, we are overly reliant on foreign sources for 
the dogs that we train for Secret Service, ATF, Customs. I know 
the Defense Department gets all their dogs from overseas, as 
does TSA who relies on the Defense Department to procure their 
dogs. Tell me, do you know what percentage of the dogs that are 
being used, or can you estimate what percentage in the Federal 
service are coming from overseas? Tell me about why they go 
overseas to get them, Mr. Pearce.
    Mr. Pearce. Yes, sir. You know, you will raise your 
eyebrows when I say probably close to 95 percent would be my 
guess. The reason why I say that is not only are they going 
overseas, but they are procuring dogs from State-side vendors 
also, but those State-side vendors are also going overseas and 
getting the dogs that we think that they are getting from the 
United States. The dogs that they are getting overseas are 
basically bred probably to pass the statement of work which 
included the health of the dog and possibly a procurement test 
on performance. The problem that you run into when you procure 
those dogs with a procurement test is once they get them back 
here, they go flat in training. Basically they have learned all 
they could to pass the procurement test and did not have the 
ability to learn any more.
    Additionally, they were not prepared properly to work in 
the environments that we may have here, such as an aviation 
security environment, a transit system, what-have-you. When you 
put the dogs in there, they will basically collapse on you 
there and will not work as hard or are not comfortable in that 
condition and basically cannot work as competently as you want 
them to.
    Mr. Rogers. Why are we going overseas to get them?
    Mr. Pearce. Because the channels have already been 
established, a history of people going over there for many, 
many years. They have got breeding lines that they are using 
for Belgian Malinois and German shepherds that have been there 
for some time and they basically produced those over the years.
    Mr. Rogers. I see my time has expired. I yield.
    Mr. Carney. I know you have trained personally a lot of 
teams and there are 478 teams out there now roughly? We have 
450 major airports. How long can a dog team stay on the job 
during the day?
    Mr. Pearce. It varies and depends on how long--and we call 
it basically sniff time, how long the dogs are required to work 
such as what we watched out earlier this morning, the dog 
working around the vehicle. It probably took the dog probably 
about 15 seconds to clear that vehicle. If you take that dog 
and work several vehicles right in a row and just continue the 
dog over and over, over a period of time you would want to 
start the dog out slow and actually build up to a certain 
amount of search time, rather than just all of a sudden throw 
the dog in a situation like that and require the dog to work a 
long period of time.
    A good example of that is if you were a track person and 
you could run a mile, you could not necessarily run a marathon 
tomorrow. You would have to actually gradually go into that and 
that is basically what you need to do with the dog.
    Mr. Carney. Do the nasal perceptors of the dog, receptors, 
get fatigued?
    Mr. Pearce. It is not so much the nasal receptors as it is 
the dog becoming fatigued itself.
    Mr. Carney. Okay. You know, I am pleased to be a co-sponsor 
along with Congressman Rogers on the Canine Detection Team 
Improvement Act. I agree with Congressman Rogers on the 
necessity of improving this program Nation-wide, I think it is 
essential that we do not rely on overseas sources for what is 
essentially a national security asset. I do not want to ever 
find ourselves in a position where we cannot access things that 
are vital to our security. From what I have seen in the last 2 
days, these dogs are absolutely essential to national security.
    So can you tell me in your own words, Mr. Pearce, why it is 
so important that we establish a national standard, national 
detection standard?
    Mr. Pearce. That is a very important point and in all 
aspects of what we are doing, from breeding to training of dogs 
and to also training handlers, which often is overlooked as 
well. As you know, the Scientific Working Group for Dog and 
Orthogonal Detection Guidelines, that association is basically 
building best practices for dogs to be trained by, for handler 
training, for breeding, those things. In the absence of a 
national standard, we have had things like in 2003 where we 
had--we saw a case where we more or less fraudulently produced 
dog teams and had them providing security services in our 
Nation's capitol and that was more or less the awakening point 
and made us all aware of what could actually happen. Just the 
title as a detector dog team or an explosive detector dog team 
does not necessarily mean the detector dog team is capable of 
working at a standard, and we need to get away from more or 
less the title and have a guideline that provides evaluations 
and provides--to ensure that dog teams are working at a certain 
level.
    Mr. Carney. Mr. Rogers, anything further?
    Mr. Rogers. Yes, to follow up on that, I was surprised on 
my most recent trip to Iraq to find that most of the canine 
teams over there were on contract. We do not have a national 
standard that we require be met when we spend Federal money to 
put a canine asset in place, whether it is the Defense 
Department or domestically.
    I know you were with TSA at one time and I want to talk a 
little bit about that. You know, these canine assets are 
currently used some, but not nearly as much as they should be, 
to the level that they should be, of course in our Nation's 
capitol and in Federal buildings, some transportation hubs and 
of course our borders coming in from other countries, ports of 
entry where we have ships and such.
    But one of the areas I think people would most be 
interested in is the airplanes, people want to know that their 
airplane is going to be safe. I have been surprised to find 
that only in major hub airports, like in Atlanta and Reagan 
Airport and Dulles and O'Hare, do they have the very 
sophisticated screening equipment for the baggage. Obviously 
all passengers are screened carefully but baggage in some of 
the smaller airports is not. How realistic is it, do you 
believe, based on your experience, for us to get these canine 
assets in the level they would need in the small regional 
airports, like for example, Montgomery or Huntsville, to sweep 
the baggage? I explain this for folks who are not familiar with 
it, at Lackland Air Force Base, TSA has a training facility, 
they have a warehouse set up and they have the carts that carry 
your luggage from the airport terminal out to the plane to load 
it into the belly of the plane, they have rows of them just 
like you'd find in an airport, lined up along this warehouse. 
They can take that dog, turn it loose and it will sweep within 
30 seconds down one side, back up, two or three dozen of these 
carts with relative ease, if there is any drugs or explosives 
in there, they will recognize it immediately. My point is that 
is a very cost-efficient, inexpensive asset, but we do not have 
them in the smaller airports.
    How massive a program would we need to be able to meet just 
that need? I'm not talking about our borders, not talking about 
our train stations and such, just the airports to make sure 
regional airports have a screening by canines. How many dogs 
are we talking about?
    Mr. Pearce. I am unaware of how many dogs it would take, 
Congressman, but I can tell you that has been looked at by TSA 
before and part of the problem is putting one dog in an 
airport, more or less is not giving them the ability to train 
and assist each other. Some of the situations we are talking 
about today as far as first responders, rural first responders, 
kind of gets into that area there, it is kind of hard to set up 
and they may want to look at some type of regionalization of 
rural areas to include those that are at the airport.
    Recently we traveled to Pennsylvania to support a DHS 
mission to conduct a survey. There they had Pima 13 and Pima 13 
basically is a conglomerate or cluster of counties that--13 
counties that came together to provide each other training and 
networking and things of that nature and that worked out fairly 
well for them, as long as you could keep the counties close 
together and they could travel, because the frequency of 
training that they are going to need is critical. But I believe 
that to include the airports and some of those rural 
communities, it might be a good idea to cluster them together.
    Mr. Rogers. Talking about clustered utilization, how 
difficult is it to cross-train these dogs to do multiple 
things? For example, explosive detection but also be a cadaver 
dog, so if there was a tornado set down in east Alabama, the 
rescue folks would have that Federal resource to draw on. Is 
that cross-training too difficult?
    Mr. Pearce. Yes, sir, and a lot of times it is confusing 
for the dog. We do not recommend it. We actually recommend that 
there be one discipline taught to the dog. It is a lot easier 
if you tell me--and a lot of times, patrol is the other 
discipline that is placed with detection, such as explosives or 
narcotics. In a lot of cases, it is very time-consuming to 
train on both of those disciplines and it is a lot harder for 
us as a producer of those dogs to find dogs that meet the high 
standards of both those disciplines.
    Mr. Rogers. Do cadaver dogs require a particular breed or 
special type of dog?
    Mr. Pearce. No, sir, very similar to the type of dog that 
we are breeding here or you can purchase for regular detector 
dog work.
    Mr. Rogers. We had one of these field hearings in New 
Orleans about 2 years ago talking about post-Katrina and the 
inadequacy of their assets in trying to find all the bodies 
after that disaster. I guess this is more for you, Mr. Walker, 
talking about the need for more assets. Would a program that 
provided Federal cadaver dogs that were trained--paid for by 
the Federal Government, trained and then provided at no charge 
to a local rescue squad to be drawn upon in the event of a 
disaster be of benefit and is there anything like that out 
there now?
    Mr. Walker. There is not, sir. I think that when you look 
at canines, when you look at rural America and a lot of 
Alabama, we have obviously a number of canine teams in the 
State but they are an asset that is nice to have, not 
necessarily a need-to-have. I agree with you, I think we need 
to transition from the canines being a nice-to-have asset to a 
need-to-have asset, because they can do so much, you are 
absolutely right, post-Katrina, trying to cover that area along 
the Gulf coast and New Orleans, and even in Mobile. If we had 
had more dogs, better dogs for the sweep of tornadoes, missing 
people, I mean dogs are an incredibly valuable asset and I 
think that your legislation, I hope, will take it from a nice-
to-have asset to a need-to-have asset and it will not only be 
useful in cities like Huntsville that have regional airports, 
but then also dispersed around the country.
    Mr. Rogers. Two more questions, Mr. Chairman?
    Mr. Carney. Absolutely.
    Mr. Rogers. We have just put in this year's appropriation 
bill, $1.7 million for Auburn to construct a canine training 
program for local communities. If you had Dr. Gogue's ear--
because you do right now--to say we would like you to construct 
this program to meet a specific need, what would those be? Mr. 
Knight, would it be a cadaver dog, would it be something for 
local sheriffs to have? What would you want? This is going to 
be a program for the Nation and just for rural communities, 
small communities.
    Mr. Walker. Mr. Rogers, I think you have to have a mix and 
you would have to look at geography of the State. I think if 
you look at Alabama, we would want cadaver dogs and those that 
are post-incident probably down along our coastal counties; in 
Birmingham, Huntsville, Montgomery, the focus would probably be 
more on drug and police work dogs. So, you know, the State 
obviously represents a mix of interests and I think that we 
could take advantage of dogs with any number of capabilities. 
It would probably be tied to geography and with the existing 
assets that we already have.
    Mr. Knight. I agree, totally agree.
    Mr. Rogers. I have had some local sheriffs and police 
departments talk about the need to have these on a shared 
basis, to sweep schools. So every school would know that 
periodically unannounced there is going to be a dog coming 
through and sweeping for drugs in the hallways, as a deterrent.
    Anyway, I would be interested in you thinking about that 
more. This has got to be a work in progress. We have to 
remember also we have, as I talked about with you, these major 
events in Alabama like the Iron Bowl or for that matter any 
home ball game at Auburn or Alabama, Talladega 500, where we 
have large numbers of people--no offense taken.
    Mr. Carney. Your time is up.
    [Laughter.]
    Mr. Rogers. We are not going to let him come back to 
Alabama any more. That we have to prepare for, you know, making 
sure that we have got appropriate security measures for that. 
Do you have that now? If you have got a big event coming, let 
us say for example, the Iron Bowl. I know that you take 
precautions in advance of that, prepare for potential threats. 
Do you have canines now that work those events?
    Mr. Walker. They do work the events, sir.
    Mr. Rogers. Where do you get them?
    Mr. Walker. The locals get them. The State has not 
requested them. At Talladega, for example, they will contract 
dogs and pay for them. You know, at any given Talladega race, 
we will have over 650 sworn law enforcement officers around the 
State and bordering States with all sorts of capabilities. 
Which raises an interesting point. You talk about a rural 
community that 340 days out of the year will have basic needs 
that most rural communities do, but for about 2 weeks out of 
every year, they will become the fourth or fifth largest city 
in the State of Alabama, talking about Talladega specifically. 
So when you look at a rural community that then has to displace 
surge capability and incorporate all sorts of different assets, 
that is a perfect example.
    But I would like to take that on, for the record, Mr. 
Rogers, and be able to come back to you and talk to you about 
the canine assets that we have around the State, how we use 
them to surge, but then work with your staff to explore how we 
could get more canines in for events like Talladega.
    Mr. Rogers. What I am specifically looking for, and this is 
simply talking the breeding program capacity, I would like to 
know how many assets we have now and where you ideally would 
like to see us be as far as canine assets in this State. I 
would appreciate that very much.
    My last area I want to probe on is with Mr. Pearce. 
Yesterday, watching the video on off-leash canines that are 
working over in Iraq with the Marines, it is great, and you 
gave us a demonstration this morning out here how they can 
sweep a building off leash. What I was thinking about when I 
was watching the demo yesterday is our ports of entry on the 
southwest border, specifically the major ones like El Paso, San 
Diego, where you have 10, 12, 15 lanes of traffic waiting to 
come into this country daily, all day long, backed up 20 and 30 
cars. What we have now is typically one or two dogs that are 
rotated, they work 2-hour shifts amongst the lanes. We 
currently have spotters, the drug dealers put spotters on the 
Mexican side of the border that are walking amongst the cars 
like they are selling things, but what they are really doing is 
watching to see which lanes the dogs are in, so they can shift 
their carriers over to different lanes to make sure they go 
through a lane without a dog. I was curious yesterday with the 
off-leash dogs that were sweeping for explosives in Iraq, would 
they be able to work off-leash and meander amongst those cars 
on the Mexican side of the border and signal to a spotter that 
that car has something, so when it gets up to the front you can 
pull it off? How long do they work and is that a practical use 
for those dogs?
    Mr. Pearce. The problem I see with that is the fact that 
you have a vehicle and the possibility of getting your dog 
injured, things of that nature. However, you know, if you were 
going to do some type of an off-leash application, they would 
need to be trained the way that we trained those dogs for the 
Marine Corps project, just as you said, rather than just----
    Mr. Rogers. How would they be injured? They are just 
basically sitting in traffic.
    Mr. Pearce. Well, if the traffic is still, it is very 
feasible that you could do that because the quantities of 
narcotics that they are bringing through there would not be 
that hard for a dog to detect. So in that aspect, if you could 
lock the vehicles down to where they cannot move and then they 
were still for a moment, it would be very feasible to do that.
    Mr. Rogers. Thank you, Mr. Chairman, that is all I have.
    Mr. Carney. Does this panel have any final comments? Mr. 
Schrader, Mr. Walker?
    Mr. Walker. Sir, I would just like to say we have had 1,800 
Pennsylvanians that have gone through the training, we have had 
14,570 Alabamians, so we are awfully grateful to have----
    Mr. Carney. We will deal with that.
    [Laughter.]
    Mr. Walker [continuing]. That facility right here in 
Alabama. Again, Mr. Chairman, thank you for taking your time to 
come to our great State.
    Mr. Carney. My pleasure. Dr. Meehan.
    Mr. Meehan. Thank you for the opportunity, Mr. Chairman.
    Mr. Pearce. Thank you very much, appreciate you being here.
    Mr. Knight. Thank you, Mr. Chairman.
    Mr. Carney. The panel is reminded that this is a 
congressional hearing and we may have questions for you later 
that people will ask and we would like an expeditious reply in 
writing. If there are things you would like us to know that 
were not addressed today, please do not hesitate to get in 
touch with the staff of the committee or myself or Mr. Rogers.
    There being no further business before the subcommittee, we 
stand adjourned.
    [Whereupon, at 10:45 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions From Honorable Bennie G. Thompson of Mississippi for Dennis 
 R. Schrader, Deputy Administrator for National Preparedness, Federal 
      Emergency Management Agency, Department of Homeland Security
    Question 1. The CDP is authorized to administer training to 
students from overseas on a fee basis, could you please elaborate on 
this program?
    Answer. The Consolidated Appropriations Act for fiscal year 2008 
authorized the Center for Domestic Preparedness (CDP) to train Federal, 
private, and international responders, on a reimbursable, space-
available basis. The inclusion of response professionals from other 
countries to the CDP to train with our students benefits the CDP and 
our traditional student population by allowing us to hear and learn new 
ideas from others. These new ideas enrich our instructional programs 
and make them even more robust for our Nation's responders. 
International students are enrolled only after appropriate clearances 
from the State Department are received via FEMA's Office of 
International Affairs. International responders participating in CDP 
training must be fluent in speaking and reading English, and are 
responsible for funding their air travel, food, and lodging costs.
    Accurate recovery of participation costs for international students 
has posed new challenges. CDP staff has established tuition costs for 
25 courses based on historical course delivery data. The CDP does not 
currently have a system in place to collect tuition. The CDP business 
office is currently working with the appropriate FEMA offices to 
establish the required business process for invoicing and collecting 
tuition. The CDP is dependent of FEMA business processes where 
currently, there is not a system in place to collect tuition for CDP 
students who would be required to pay tuition.
    Question 2. Has CDP trained students from overseas? If so, how many 
and from what countries?
    Answer. Yes. The following is a collective list of international 
students that have trained tuition-free since inception. Each of these 
participants were approved by headquarters and participated when there 
were availability of seats that did not impede State and local 
participation.

------------------------------------------------------------------------
               Year                     Amount             Country
------------------------------------------------------------------------
Fiscal year 2004..................               1  Canada
Fiscal year 2004..................              15  Trinidad and Tobago
Fiscal year 2004..................               1  United Kingdom
Fiscal year 2004..................               4  Sweden
Fiscal year 2005..................              16  Mexico
Fiscal year 2005..................               1  Saint Martin
Fiscal year 2005..................               4  Qatar
Fiscal year 2005..................               2  Sweden
Fiscal year 2006..................               7  Canada
Fiscal year 2006..................               1  South Korea
Fiscal year 2006..................               1  Spain
Fiscal year 2007..................               2  Canada
Fiscal year 2007..................               1  Taiwan
Fiscal year 2008..................               3  Israel
                                   -------------------------------------
      Total.......................              59
------------------------------------------------------------------------

    Question 3. What are CDP's plans to grow this program in the 
future?
    Answer. CDP's ability to adequately conduct outreach and provide a 
long-term projection of our plans is hampered by the fact that the 
program is only authorized on a year-by-year basis. Unequivocally, 
CDP's first priority remains training America's first responders, 
however, because of the multi-faceted benefits associated with 
including international students, CDP hopes that it will be able to 
continue regularly hosting training partners. This will allow CDP to 
continually seek out new investivee methods that will provide 
additional training for all of our students.
    FEMA Leadership is cognizant of the benefits that international 
students bring to CDP and FEMA. At Administrator Paulison's 
encouragement, the first Israel Defense Force Home Front Command 
responders were trained at the CDP in June of this year. This opened 
the door to training in Israel for FEMA personnel. In August of this 
year, Israel provided training on Israeli Home Front Command Operations 
to a FEMA Region 2 Disaster Operations staff member. The best practices 
and course work lessons learned from this training opportunity will be 
shared throughout FEMA.
    To build on this and other successes, FEMA's Office of 
International Affairs works closely with the CDP's public/external 
affairs office to ensure that the international community is aware of 
the center's capacity to train international students.
    Question 4. Can you describe the current staffing levels at the CDP 
and also describe the capability available there?
    Answer. The Center for Domestic Preparedness (CDP) has an 
authorized Full Time Equivalent (FTE) staffing level of 45 with 
additional Federal support provided on-site by 5 FEMA FTE's not 
formally attached to the CDP staffing roll. The 5 FEMA additional FTE's 
include the Attorney Advisor and 4 Contracting Officers/Specialist who 
work as liaisons between the CDP and their Headquarters. The current 
vacancy rate is 16 percent with a goal of 5 percent by November 2008 
based on current Human Resource efforts. In addition to the FTEs, the 
work force at the CDP contains a large number of contractor personnel. 
The CDP's contractor rolls have gradually increased over the past 10 
years and now equate to approximately 1,000 contractor support 
personnel. This is due in part to the fact that the CDP has evolved 
from what was originated as a resident training center to a current 
state including both a vibrant resident and an immensely successful 
Nation-wide mobile training program. For fiscal year 2008, as of 
September 6, the CDP has provided training to more than 105,000 
emergency responders through our resident, non-resident, and train-the-
trainer programs.
    The CDP offers cutting-edge training in weapons of mass destruction 
protection and response as well as all-hazards curriculum through its 
use of traditional classrooms, the Nation's only live chemical agent 
training facility dedicated to civilian training, and a full scoped 
hospital used solely for training public health professionals affording 
them the opportunity to experience mass casualty training in the real 
environment.
    Question 5. How is CDP and FEMA reaching out to rural America and 
providing them with the training and resources they require?
    Answer. The CDP is continuing discussions with its partners through 
the Rural Domestic Preparedness Consortium to create a program of 
instruction that specifically addresses the needs of rural response 
professionals. While rural responders do come to the CDP and 
participate in our resident training courses, the need across the 
country to accomplish rural response training is immense. To date, in 
fiscal year 2008, approximately 33,740 of the total 105,437 responders 
trained this year can be classified as ``rural'' responders. A longer-
term review of our files reveals that approximately 48 percent of the 
responders trained through CDP courses over the past 8 years are 
classified as ``rural'' responders.
    The CDP's success to date in reaching this important response 
demographic only bolsters the need to for the CDP to do more. However; 
if the CDP is to deliver the volume of training to address the needs of 
the rural responders adequately, the CDP must work in partnership with 
consortium members and others who can assist us in the collaborative 
delivery of training. Only then will we be able to increase our 
capacity to put the curriculum and experiential learning in the hands 
of rural responders at the local level. Working collaboratively with 
our committed partners represents the best strategy to meet this 
important need.
     addressing special training considerations of rural responders
    The CDP is both cognizant and respectful of the staffing 
limitations that affect rural responders. In many cases, rural 
departments cannot release staff to attend resident training or non-
resident training offered by the CDP, even when the training is offered 
in the home jurisdiction. The CDP met with the Rural Domestic 
Preparedness Consortium (RDPC) representatives on September 11, 2008, 
to establish formal relationships designed to provide training for 
rural responders. The concept for this initiative is focused on 
delivering advanced training to rural communities designed in a modular 
format. This training will incorporate elements of existing training 
offered through the members of the National Domestic Preparedness 
Consortium (NDPC), the RDPC, and the CDP. The training courses 
currently offered by FEMA providers typically require a minimum of 8 
hours for training and can take up to 40 hours, when coupled with 
travel time for resident courses. The modular training labs would 
travel to rural locations, offer training during non-traditional times 
(nights/weekends), and focus on critical skills associated with 
Decontamination, Hazardous Materials, Incident Management, Mass 
Casualty, and other topics identified in surveys conducted by the RDPC.
    The modules would be packaged in 1-, 2-, 3-, and 4-hour increments, 
to allow responders to select training that meets their time 
constraints and specific training needs. The outcome of this modular 
approach will not necessarily provide a comprehensive learning model 
consistent with the completion of an existing course; however, the 
training will provide rural responders an opportunity, over a series of 
days, to capture as many modules as their time and resources permit. 
These modules can be catalogued and packaged in a manner that achieves 
a course-completion certificate if the responder accomplishes the pre-
determined modules over a pre-established time. Rural responders can 
also participate in any of the Independent Study courses offered by the 
Emergency Management Institute (EMI) or the U.S. Fire Academy (USFA).
    Assessing rural responder needs:
  <bullet> DHS/FEMA funded the Rural Domestic Preparedness Consortium--
        the RDPC--led by Eastern Kentucky University's Justice and 
        Safety Center.
  <bullet> Partners include East Tennessee State University, Iowa 
        Central Community College, Northwest Arkansas Community College 
        and the University of Findlay, Ohio.
  <bullet> RDPC sought to identify gaps in training for homeland 
        security.
  <bullet> Each RDPC member hosted a regional forum and distributed 
        more than 3,200 surveys focused on all-hazards homeland 
        security training needs.
  <bullet> National Rural Emergency Preparedness Summit convened in 
        September 2007.
  <bullet> CDP conducts weekly sessions with resident students focused 
        on identifying training gaps and specific challenges faced with 
        obtaining training.
  <bullet> CDP hosts annual focus groups with the State Administrative 
        Agency (SAA) Training Coordinators to identify solutions 
        designed to meet State training strategies encompassing both 
        urban and rural training needs.
  <bullet> Specific outcomes instituted to assist the rural response 
        community include:
    <bullet> Offering mobile training in their jurisdiction, allowing 
            multiple jurisdictions to train in a regional approach;
    <bullet> Conducting mobile training at night and on weekends to 
            meet the volunteer response communities' schedules;
    <bullet> Offering courses in Train-the-Trainer formats;
    <bullet> Funding resident training (tuition, lodging, meals and 
            travel).
    Question 6. Based on your experiences, how do you see the role of 
detection canines in supporting the homeland security mission?
    Answer. FEMA's National Urban Search and Rescue (US&R) Response 
System is a framework for structuring local emergency services 
personnel into integrated disaster response Task Forces. The 28 
national US&R Task Forces have the necessary tools, equipment, skills 
and techniques, including disaster search canines, that can be deployed 
by FEMA to assist tribal, State and local governments in rescuing 
victims of structural collapse incidents or to assist in other search 
and rescue missions. Disaster search canines, along with Canine Search 
Specialists, deploy with Task Forces to provide critical victim search, 
reconnaissance, and rescue capabilities, through their ability to 
detect and alert to live human scent. The deployment of search and 
rescue canines in coordination with the US&R Task Forces is dependent 
upon availability and need. Each Task Force has the capability to 
respond with four Disaster Search Canine Teams (handlers and canines), 
but this can vary depending on the event. There are approximately 200 
FEMA advanced-certified teams (dog and handler) in the US&R Response 
System.
    The canines are owned and trained by either the volunteers or the 
organizations that contribute to the Task Force (local fire 
departments, EMS, or other first responder organizations). Canine 
Search Specialists on each Task Force usually provide their own dogs. 
FEMA does not own any detection, search, or rescue canines.
    In the aftermath of bombings and other explosives incidents, 
explosives detection canines that are trained by the Bureau of Alcohol, 
Tobacco, Firearms and Explosives (ATF) within the Department of 
Justice, play a critical role in detecting explosives residues and 
thereby furthering criminal investigations. These canines, and those 
trained by DHS to secure special events, airports and other high-threat 
venues, play an important role in protecting against and preventing 
bombings.
Questions From Honorable Bennie G. Thompson of Mississippi for John C. 
 Pearce, Associate Director, Canine Detection training center, Auburn 
                               University
    Question 1. How many dog teams would be needed to cover regional 
airports in the United States, and what would be required to provide 
them?
    Answer. We estimate that, at minimum, three canine teams are needed 
for each of the approximately 80 regional airports in the United 
States, or 240 teams, which includes both the dog and the handler. 
Depending on the size and traffic load of each regional airport, more 
than three canine teams may be needed for some of the facilities, but 
240 teams is a baseline estimate needed to provide canine detection.
    Training, including lodging, food and travel expenses, for each 
team is approximately $30,000 per team. Auburn University is well-
positioned to provide the needed training, either at its current 
facilities or through certification of regionally approved training 
centers.
    Question 2. How long can a dog work?
    Answer. Numerous factors impact how long a dog may work, including 
the capabilities of the handler, the physical environment in which the 
team is operating, the level of training and the dog's physical 
condition. Auburn University's program prepares dogs for optimal 
performance in the environment in which they will perform. In addition, 
our research and experience has provided information that allows us to 
enhance the dog's physical stamina, endurance and performance.
    There are two measures of ``work'' duration to be considered. One 
is duty-cycle or ``sniff-time'', which is the duration of any 
individual active search episode. The other is duty-duration or 
``shift-duration'', which is the total amount of time on-duty between 
periods of extended rest (i.e. work-day duration). We have found 
appropriately conditioned dogs capable of duty-cycles of at least 1 
hour and duty-durations of 18 hours with only short (i.e., 15-30 
minutes) breaks.
    However, for daily operations, it is anticipated that a 9-hour 
shift is reasonable. Using airport screening as an example, a minimum 
of two dog teams will be required for each location, assuming a 6 a.m. 
to 12 midnight operation. A third team should be available for 
rotation. This scenario is consistent with the three-dog team 
requirement for each regional airport.
    A separate issue of time is the duration of service a dog can 
provide before retraining is necessary or retiring. With proper 
breeding and training, a detector dog should be capable of maintaining 
her detection capability and fitness for an effective service life of, 
nominally, 10-12 years of age. In order to accomplish this, the handler 
will need to be supported by a program that provides adequate oversight 
to include at least annual evaluations of team performance, adequate 
veterinary support, training aids, and opportunities for continuing 
education related to detector dog operations. It would be normal for at 
some point, usually in the first 2 years, of the working life of any 
detector dog team for some problem in performance of either the handler 
or dog to occur that requires the intervention of a canine training 
professional to correct.
    Question 3. Give an example or tell us why a lack of training and 
certification standards is detrimental?
    Answer. The lack of standards and uniform certification is perhaps 
the biggest problem in the detector dog community from a homeland 
security perspective. In other words, the extreme variability of 
quality with which canine detection is practiced means first responders 
and Government agencies can have no confidence in the level of training 
or efficacy of the dog team.
    For example, dog teams are working in critical areas that are not 
trained or tested to effectively work in such a high operational tempo. 
Without training or certification standards that ensure operational 
effectiveness, it is unknown just how effective the team is performing. 
Training and evaluating are a necessity in the operational environment 
to ensure operational effectiveness of the canine team in detection of 
explosives.
    There are a number of organizations that promulgate their own 
standards and conduct certification events for detector dog teams. 
Although all are well intentioned, these organizations vary 
significantly in the rigor and operational validity of the testing they 
conduct for certification. Some of the most prolific existing 
organizations also suffer from significant regional variability.
    The DHS Office of Bombing Prevention, which has conducted national 
capabilities assessment and maintains a resource-typing database for 
bomb technicians, initiated a pilot capabilities assessment survey for 
canine detection. We recommend that, along with supporting the 
development of best practice guidelines, Congress encourage DHS to 
continue with this canine detection capabilities activity.
    Auburn University has proven its effectiveness in detector dog 
training to meet the needs of first responders and public safety 
officials. As such, we are eager to assist in development of best 
practice guidelines and certification standards.
    Question 4. Is it feasible to use unleashed dogs with remote 
sensors to screen cars for illegal drugs on the Mexican side of the 
border?
    Answer. Using technology to instrument dogs with command-and-
control, guidance and remote-sensing capabilities could serve as an 
effective means to quickly screen cars for illegal substances at border 
crossings. The remote sensing capabilities enhance and extend the 
applications for detector dogs, making it possible to screen large 
numbers of vehicles with guidance from a handler who is physically 
removed from the area being searched. Such a procedure would require 
certain safety precautions for the dogs, such as ensuring that the 
vehicles are stationary as they are screened.
    Question 5. Can Auburn University produce and train or certify as 
many as 500 dogs per year and what would it take to do so?
    Answer. Yes, and we would welcome the opportunity. Auburn 
University has a unique combination of needed capacity for facilities, 
a proven and readily expandable system for raising puppies to be 
detector dogs, and the support of a nationally recognized College of 
Veterinary Medicine. These factors combine to make Auburn University 
the optimal institution to economically and successfully launch a 
national detector dog production and training program.
    If needed, Auburn University can provide a detailed budget and 
action plan on expansion of our current facilities to fulfill such a 
need.
    I hope this provides further insight; however, should you have 
additional questions, please feel free to contact me. Again, thank you 
for this opportunity.

                                 <all>

</pre></body></html>
